NO. 19-333
IN THE

Supreme Court of the United States
ARLENE’S FLOWERS, INC., D/B/A ARLENE’S FLOWERS AND
GIFTS, AND BARRONELLE STUTZMAN,
Petitioners,
v.
STATE OF WASHINGTON,

Respondent.

ARLENE’S FLOWERS, INC., D/B/A ARLENE’S FLOWERS AND
GIFTS, AND BARRONELLE STUTZMAN,
Petitioners,
v.
ROBERT INGERSOLL AND CURT FREED,
Respondents.

On Petition for Writ of Certiorari to the
Supreme Court of Washington
PETITION FOR REHEARING
DAVID A. CORTMAN
RORY T. GRAY
ALLIANCE DEFENDING
FREEDOM
1000 Hurricane Shoals Rd.
Suite D-1100
Lawrenceville, GA 30043
(770) 339-0774

KRISTEN K. WAGGONER
Counsel of Record
JOHN J. BURSCH
ERIN MORROW HAWLEY
ALLIANCE DEFENDING FREEDOM
440 First Street NW
Suite 600
Washington, DC 20001
(202) 393-8690
kwaggoner@ADFlegal.org

Counsel for Petitioners

i
CORPORATE DISCLOSURE
The Corporate Disclosure Statement in the
petition remains unchanged.

ii
TABLE OF CONTENTS
CORPORATE DISCLOSURE ..................................... i
APPENDIX TABLE OF CONTENTS ..................... iii
TABLE OF AUTHORITIES ..................................... iv
PETITION FOR REHEARING ................................. 1
REASONS FOR GRANTING REHEARING ............ 1
I. The Tenth Circuit’s decision deepens the
lower-court split over when custom wedding
expression constitutes “speech” and whether
public accommodation laws may compel
artistic expression. ................................................ 3
A. 303 Creative exacerbates the split of
authority over whether custom wedding
art constitutes “speech.” .................................. 3
B. Public accommodations laws are being
used to compel speech in violation of a
speaker’s sincere religious beliefs. .................. 6
II. The Tenth Circuit’s ruling on strict scrutiny,
which dovetails with the Washington
Supreme Court’s here, conflicts with the
Eighth Circuit’s holding in Telescope Media
and creates a new inter-circuit split. ................... 8
III.The Tenth Circuit’s decision vividly illustrates
the unworkability of Employment Division v.
Smith. .................................................................... 9
IV. This in an appropriate case for rehearing. ........ 11
CONCLUSION ......................................................... 13
Certificate of Counsel............................................... 14

iii
APPENDIX
TABLE OF CONTENTS
Opinion, 303 Creative LLC, et al v. Aubrey
Elenis, et al, U.S. Court of Appeals for Tenth
Circuit (July 26, 2021) ............................................... 1

iv
TABLE OF AUTHORITIES
Cases
303 Creative LLC v. Elenis,
No. 19-1413, __ F.4th __, 2021 WL ________
(July 26, 2021) ..................................................... 1
Brush & Nib Studio, LC v. City of Phoenix,
448 P.3d 890 (Ariz. 2019) .................................... 4
Craig v. Masterpiece Cakeshop, Inc.,
370 P.3d 272 (Colo. App. 2015) ........................... 4
Elaine Photography, LLC v. Willock,
309 P.3d 53 (N.M. 2013) ...................................... 4
Employment Division v. Smith,
494 U.S. 872 (1990).............................................. 9
Fulton v. City of Philadelphia,
141 S. Ct. 1868 (2021)................................ 1, 8, 10
Hurley v. Irish-American Gay, Lesbian &
Bisexual Group of Boston,
515 U.S. 557 (1995)...................................... 3, 6, 8
Kaplan v. California,
413 U.S. 115 (1973).............................................. 3
Klein v. Oregon Bureau of Labor & Industries,
410 P.3d 1051 (Or. Ct. App. 2017) ...................... 4
Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Comm’n,
138 S. Ct. 1719 (2018)...................................... 3, 4
Obergefell v. Hodges,
576 U.S. 644 (2015)............................................ 12

v
Roman Catholic Diocese of Brooklyn v. Cuomo,
141 S. Ct. 63 (2020)............................................ 12
Rumsfeld v. Forum for Academic and
Institutional Rights, Inc.,
547 U.S. 47 (2006)................................................ 5
Scardina v. Masterpiece Cakeshop Inc.,
No. 19CV32214 (Denver Dist. Ct.
June 15, 2021) ...................................................... 7
Telescope Media Group v. Lucero,
936 F.3d 740 (8th Cir. 2019) ....................... 1, 4, 8
Trinity Lutheran Church of Columbia, Inc. v.
Comer,
137 S. Ct. 2012 (2017)........................................ 10

1
PETITION FOR REHEARING
Petitioners Barronelle Stutzman and Arlene’s
Flowers, Inc., d/b/a Arlene’s Flowers and Gifts,
petition for rehearing of this Court’s July 2, 2021
Order denying their petition for a writ of certiorari.
As noted in the Order, Justices Thomas, Alito, and
Gorsuch would have granted the petition.
REASONS FOR GRANTING REHEARING
This Court’s Rule 44.2 authorizes a petition for
rehearing based on “intervening circumstances of a
substantial . . . effect.” Only yesterday, the United
States Court of Appeals for the Tenth Circuit issued
its opinion in 303 Creative LLC v. Elenis, No. 19-1413,
__ F.4th __, 2021 WL ________ (July 26, 2021). The
Tenth Circuit’s intervening decision substantially
deepens (to 3-4) the lower-court conflict described in
Barronelle’s previous filings in this Court. The Tenth
Circuit held that Colorado may force a designer to
create custom websites celebrating same-sex
marriage, despite its ruling that creative art
incorporating various media—like Barronelle’s floral
art—is “speech.” The Tenth Circuit concluded that
Colorado satisfied strict scrutiny, dovetailing with the
Washington Supreme Court’s decision below, but
conflicting with the Eighth Circuit’s holding in
Telescope Media Group v. Lucero, 936 F.3d 740 (8th
Cir. 2019). Lastly, its opinion vividly illustrates the
problem lower courts will have discerning when a law
is neutral and generally applicable, even after Fulton
v. City of Philadelphia, 141 S. Ct. 1868 (2021).

2
The Tenth Circuit’s new decision warrants this
Court’s rehearing and either a grant or hold of
Barronelle’s petition for certiorari.

3
I.

The Tenth Circuit’s decision deepens the
lower-court split over when custom
wedding expression constitutes “speech”
and whether public accommodation laws
may compel artistic expression.
A. 303 Creative exacerbates the split of
authority over whether custom wedding
art constitutes “speech.”

This Court’s definition of “speech” extends to
artistic expression, Hurley v. Irish-American Gay,
Lesbian & Bisexual Group of Boston, 515 U.S. 557,
569 (1995), such as “pictures, films, paintings,
drawings, and engravings, Kaplan v. California, 413
U.S. 115, 119–20 (1973), and even abstract art like
Pollock’s paint drips and Schöenberg’s atonal
instruments, Hurley, 515 U.S. at 569. It also includes
expressive conduct as diverse as “nude dancing,
burning the American flag, flying an upside-down
American flag with a taped-on peace sign, . . . and
flying a plain red flag.” Masterpiece Cakeshop, Ltd. v.
Colorado Civil Rights Comm’n, 138 S. Ct. 1719, 1741–
42 (2018) (Thomas, J., concurring).
Below, Barronelle introduced unopposed expert
testimony establishing that her custom floral designs
are artistic expression akin to other visual art.
Pet.App.398a–401a. Her multi-media works incorporate plants, fabrics, pictures, and other objects to
convey expressive messages, and she has her own
“recognizable” style. Pet.8 (citations omitted). The
Washington Attorney General conceded that these
custom floral arrangements are “a form of
expression.” Pet.26.

4
Nonetheless, the Washington Supreme Court
ruled that her floral art was not protected speech or
expressive conduct, Pet.App.42a, 49a, and that judges
“cannot be in the business of deciding which
businesses” merit speech protection, Pet.App.49a.
This holding followed Elaine Photography, LLC v.
Willock, 309 P.3d 53 (N.M. 2013) (wedding
photography is not protected speech), Klein v. Oregon
Bureau of Labor & Industries, 410 P.3d 1051 (Or. Ct.
App. 2017) (custom wedding cakes are not protected
speech), cert. granted, judgment vacated, 139 S. Ct.
2713 (2019), and Craig v. Masterpiece Cakeshop, Inc.,
370 P.3d 272 (Colo. App. 2015), rev’d sub nom.
Masterpiece Cakeshop, 138 S. Ct. 1719 (same). And
the holding conflicted with Telescope Media Group v.
Lucero, 936 F.3d 740 (8th Cir. 2019) (wedding video is
protected speech), and Brush & Nib Studio, LC v. City
of Phoenix, 448 P.3d 890 (Ariz. 2019) (custom wedding
invitations are protected expression).
The Tenth Circuit’s intervening decision comes
down decisively on Barronelle’s side of that
intractable split of authority, concluding that 303’s
“creation of wedding websites is pure speech.” App.20.
“The websites [303] intend[s] to offer ‘celebrate and
promote the couple’s wedding and unique love story’
by combining custom text, graphics, and other
media,” id., just like Barronelle’s custom floral
arrangements. “The websites consequently express
approval and celebration of the couple’s marriage,
which is itself often a particularly expressive event,”
id., just like Barronelle’s art. And “[303’s] custom
websites are similar to wedding videos and
invitations, both of which have also been found to be

5
speech,” id. at 21 (citing Telescope Media and Brush
& Nib), again, just like Barronelle’s custom floral art.
Critically, the Tenth Circuit’s “analysis relie[d] on
the custom and unique nature of [303’s] services,
rather than their chosen medium.” App.21.
“[C]reating a website (whether through words,
pictures, or other media) implicates [303’s] unique
creative talents, and is thus inherently expressive.”
Ibid. This holding—supported by seven other circuits
which have held that visual art merits full speech
protection, Pet.28—conflicts directly with the
Washington Supreme Court’s decision here.
The Tenth Circuit’s decision also repudiated the
Washington Supreme Court’s reasoning. Below, the
Washington Supreme Court held that Barronelle’s
custom floral art “is like the unprotected conduct in”
Rumsfeld v. Forum for Academic and Institutional
Rights, Inc., 547 U.S. 47 (2006) (“FAIR”).
Pet.App.42a–43a, 47a. But the Tenth Circuit
explained that what was at issue in FAIR—hosting
military interviews and recruiting receptions on
campus—was easily distinguished from an artist
using her “unique creative talents,” which is
“inherently expressive.” App.21. And the Tenth
Circuit further distinguished FAIR because the host
school there was “not speaking,” whereas 303’s
“speech is implicated even where [its] services are
requested by a third-party.” Ibid.
Likewise, in ruling against Barronelle, the
Washington Supreme Court held that a “decision to
either provide or refuse to provide flowers for a
wedding does not inherently express a message about
that wedding.” Pet.App.43a. Colorado made the exact

6
same argument in 303 Creative. App.23 (“Colorado
asserts that [its law] only regulates [303’s] conduct in
picking customers and does not regulate [303’s]
speech.”). But the Tenth Circuit rejected that claim as
inconsistent with this Court’s decision in Hurley,
reasoning: “As with the Massachusetts public
accommodations law in Hurley, [Colorado’s law] has
the effect ‘of declaring the sponsors’ speech itself to be
the public accommodation.’” Ibid. (citing Hurley, 515
U.S. at 573). In sum, 303 Creative squarely conflicts
with the Washington Supreme Court’s decision below
and supports this Court’s review.
B.

Public accommodations laws are being
used to compel speech in violation of a
speaker’s sincere religious beliefs.

In 303 Creative, the Tenth Circuit held that a
state may force a creative professional to speak in
violation of his or her religious views. This means that
creative professionals in the Tenth Circuit, like
creative professionals in Washington State such as
Barronelle, must either create expressive art for
same-sex weddings or shutter their wedding
businesses entirely. These rulings squarely conflict
with the Eighth Circuit and the Arizona Supreme
Court.
In 303 Creative, the Tenth Circuit forthrightly
recognized that Colorado’s public accommodation law
“‘compels’ [303] to create speech that celebrates samesex marriages.” App.23. That is, “[b]y compelling
[303] to serve customers they would otherwise refuse,
[they] are forced to create websites—and thus,
speech—that they would otherwise refuse.” Ibid. The
Tenth Circuit “recognize[d] that ‘compelled speech is

7
deeply suspect in our jurisprudence—and rightly so,
given the unique harms it presents,’” yet concluded
that Colorado could still force 303 to create websites
celebrating same-sex marriages. Id. at 32. Similarly,
without this Court’s review, Barronelle will be put to
a Hobson’s choice: either celebrate same-sex weddings
with her custom floral art or give up her wedding
business entirely.
Further, in 303 Creative, the Tenth Circuit
concluded its free-speech analysis by holding that
Colorado’s law “works as a content-based restriction.”
App.23–24. That was because 303 could not “create
websites celebrating opposite-sex marriages, unless
[it] also agree[d] to serve customers who request
websites celebrating same-sex marriages.” Id. at 24.
Indeed, said the court, eliminating the viewpoint that
marriage is between one man and one woman was the
Colorado law’s “very purpose.” Ibid. The same is true
in Barronelle’s case, which supports rehearing here.
So too for the fact that state officials are becoming
increasingly emboldened in their efforts to compel
speech in violation of a speaker’s sincere religious
beliefs. See, e.g., Scardina v. Masterpiece Cakeshop
Inc., No. 19CV32214 (Denver Dist. Ct. June 15, 2021)
(holding that Colorado may compel Jack Phillips to
create a gender-transition cake), Supp.App.1a. The
practical result of the conflicting rulings regarding
religious and free speech protections from public
accommodations laws that continue to pile up is that
Washington, Oregon, Colorado, Kansas, New Mexico,
Oklahoma, Utah, and Wyoming may compel
professional speech creators to speak, whereas
Arkansas, Iowa, Minnesota, Missouri, Nebraska,
North Dakota, and South Dakota may not. Until this

8
Court resolves the questions presented by
Barronelle’s petition for certiorari, “[i]ndividuals and
groups across the country will pay the price—in
dollars, in time, and in continued uncertainty about
their religious liberties.” Fulton, 141 S. Ct. at 1930
(Gorsuch, J., concurring).
II. The Tenth Circuit’s ruling on strict scrutiny,
which dovetails with the Washington
Supreme Court’s here, conflicts with the
Eighth Circuit’s holding in Telescope Media
and creates a new inter-circuit split.
In Barronelle’s case, the Washington Supreme
Court held that even if strict scrutiny applied, the
State could satisfy it, Pet.App.63a–67a, a ruling her
petition argued conflicts with the Eighth Circuit’s
analysis in Telescope Media Group. Pet.33–34. The
Eighth Circuit recognized that “as compelling as the
interest in preventing discriminatory conduct may be,
speech is treated differently under the First
Amendment.” 936 F.3d at 755. It held that Minnesota
lacked a valid interest in applying its public
accommodations law to speech because the state “may
not [declar[e] [another’s] speech itself to be [a] public
accommodation’ or grant ‘protected individuals ... the
right to participate in [another’s] speech.’” Id. at 755
(quoting Hurley, 515 U.S. at 572–73).
The Tenth Circuit’s decision in 303 Creative sides
with the Washington Supreme Court and creates a
new circuit split. It held that applying Colorado’s
public accommodation law to a custom weddingwebsite designer was narrowly tailored to serve the
state’s “interest in ensuring equal access to publicly
available goods and services.” App.27 (quotation

9
omitted); accord Pet.App.66a (identifying a
compelling interest in “eradicating barriers to the
equal treatment of all citizens in the commercial
marketplace”). According to the Tenth Circuit, it
satisfies strict scrutiny for a state to force anyone who
offers “custom and unique services [that] are speech”
for sale to do so for same-sex weddings, otherwise it
would “relegate LGBT consumers to an inferior
market because [these speech creators’] unique
services are, by definition, unavailable elsewhere.”
App.28; accord id. at 29 (likening speech creators’
unique services “to a monopoly”).
The circuit conflict is stark. While the Tenth
Circuit and Washington’s Supreme Court’s strictscrutiny analysis always allows the state to force
professional speech creators to lionize same-sex
weddings, the Eighth Circuit’s reasoning never allows
this result. There is no need for further percolation:
with the Tenth Circuit’s ruling in 303 Creative, two
courts of appeals and the Washington Supreme Court
have fully explored the issues involved. Rehearing is
warranted.
III. The Tenth Circuit’s decision vividly
illustrates the unworkability of Employment
Division v. Smith.
Barronelle’s petition also highlighted the
Washington Supreme Court’s ruling that her
compelled-participation claim under the Free
Exercise Clause was foreclosed by Employment
Division v. Smith, 494 U.S. 872 (1990). Pet.23 (citing
Pet.App.50a–56a). As Barronelle explained, if “Smith
allows the State [of Washington] to compel [her] to
attend and participate in sacred events contrary to

10
her faith, it should be overruled.” Pet.25. A majority
of this Court recently expressed general agreement
with that proposition. Fulton v. City of Philadelphia,
141 S. Ct. 1868, 1882 (2021) (Barrett, J., joined by
Kavanaugh J., concurring) (“it is difficult to see why
the Free Exercise Clause—lone among the First
Amendment freedoms—offers nothing more than
protection from discrimination”); id. at 1931 (Alito, J.,
joined by Thomas and Gorsuch, J.J., concurring)
(“Smith committed a constitutional error. Only we
can fix it.”).
The Tenth Circuit’s decision in 303 Creative
highlights the need for this Court to overrule and
replace Smith because lower-court judges cannot even
discern its applicability. For example, the 303
Creative panel majority concluded that Colorado’s
public-accommodations law was neutral and
generally applicable under Smith. App.35. But in
dissent, Chief Judge Tymkovich vehemently
disagreed because “Colorado has allowed exceptions”
to its law. App.88. “In fact, the entire [Colorado]
enforcement mechanism is structured to make caseby-case determinations.” Ibid. In this respect, “[t]here
is no meaningful difference between the [Colorado]
Commission’s role in enforcing [the publicaccommodations law] and the Commissioner’s role in
Fulton in parceling out exceptions for foster care
contracts.” Ibid.
As members of this Court have emphasized, the
First Amendment’s text “guarantees the free exercise
of religion, not just the right to inward belief.” Trinity
Lutheran Church of Columbia, Inc. v. Comer, 137 S.
Ct. 2012, 2026 (2017) (Gorsuch, J., concurring). It is
inconceivable that the Constitution’s protection for

11
religious exercise allows the government to force
Barronelle and many other creative professionals to
join in a religious exercise that violates their faith.
Yet Smith’s continuing viability—and the lower
courts’ inability to agree on when Smith applies, even
after Fulton—means that such coercion will continue
unabated. Again, rehearing is warranted.
IV. This in an appropriate case for rehearing.
Barronelle has been embroiled in litigation for
almost nine years, and with this Court’s denial of her
petition, she now faces a crippling financial penalty in
the form of Respondents’ claim for attorney fees.
Because the Washington Supreme Court affirmed
judgments against her personally and professionally,
that may very well bankrupt her. All this because she
referred a request to participate in and create art for
one ceremony that violates her religious convictions—
after nearly a decade of creating artistic floral
arrangements for her friend and his same-sex partner
to celebrate other events.
Barronelle’s petition in this case established deep
splits of lower-court authority, attracting three votes
for a grant. Had the 303 Creative decision been added
to the conflicts—supporting in every material respect
that (1) Barronelle’s art is constitutionally protected,
and (2) Respondents’ application of Washington’s
public-accommodations law to persecute her requires
application of strict scrutiny—it certainly could have
influenced the vote of one more Justice.
Resolution of the issues raised in Barronelle’s
petition and the Tenth Circuit’s 303 Creative ruling
cannot wait. Not just Barronelle’s livelihood but those

12
of other creative professionals hang in the balance.
And the Tenth Circuit’s ruling will result in states
like Washington and Colorado redoubling their efforts
to “stamp out every vestige of dissent” and “vilify
Americans” who continue to believe that marriage is
between one woman and one man. Obergefell v.
Hodges, 576 U.S. 644, 741 (2015) (Alito, J.,
dissenting). The petition in Barronelle’s case is fully
briefed and allows this Court to hear oral argument
and resolve these critical issues at the earliest
opportunity.
Washington’s harassment of Barronelle “strike[s]
at the very heart of the First Amendment’s guarantee
of religious liberty.” Roman Catholic Diocese of
Brooklyn v. Cuomo, 141 S. Ct. 63, 68 (2020). This
Court should reconsider its denial of Barronelle’s
petition and either grant the petition outright or hold
it for consideration with the 303 Creative petition that
is forthcoming later this year. (Barronelle’s counsel
also serves as counsel to 303 Creative and represents
to the Court that a petition will be filed). If the latter,
the Court will have the option of granting both
petitions and consolidating the cases, or granting one
petition and holding the other for a GVR.

13
CONCLUSION
For the foregoing reasons, and those stated in the
petition for a writ of certiorari, the Court should grant
rehearing, grant the petition for writ of certiorari, and
review the judgment below. Alternatively, the Court
should hold the petition pending the filing of a
petition for certiorari by 303 Creative, then consider
both petitions together.
Respectfully submitted,
DAVID A. CORTMAN
RORY T. GRAY
ALLIANCE DEFENDING
FREEDOM
1000 Hurricane Shoals
Rd. Suite D-1100
Lawrenceville, GA 30043
(770) 339-0774

JULY 27, 2021

KRISTEN K. WAGGONER
Counsel of Record
JOHN J. BURSCH
ERIN MORROW HAWLEY
ALLIANCE DEFENDING
FREEDOM
440 First Street NW
Suite 600
Washington, DC 20001
(202) 393-8690
kwaggoner@ADFlegal.org

APPENDIX

APPENDIX TABLE OF CONTENTS
Opinion, 303 Creative LLC, et al v. Aubrey
Elenis, et al, U.S. Court of Appeals for Tenth
Circuit (July 26, 2021) .............................................. 1

1
FILED
United States Court of Appeals
Tenth Circuit
July 26, 2021
Christopher M. Walpert
Clerk of Court
Publish
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

303 CREATIVE LLC, a limited
liability company; LORIE
SMITH,
Plaintiffs – Appellants,
v.
AUBREY ELENIS; CHARLES
GARCIA; AJAY MENON;
MIGUEL RENE ELIAS;
RICHARD LEWIS; KENDRA
ANDERSON; SERGIO
CORDOVA; JESSICA
POCOCK; PHIL WEISER,

No. 19-1413

2
Defendants – Appellees
---------------------------------***

Appeal from the United States District Court
For the District of Colorado
(D.C. No. 1:16-CV-02372-MSK-CBS)
***
Before TMYKOVICH, Chief Judge, BRISCOE, and
MURPHY, Circuit Judges.
BRISCOE, Circuit Judge.
I.

Introduction

Appellants Lorie Smith and her website design
company
303
Creative,
LLC
(collectively,
“Appellants”) appeal the district court’s grant of
summary judgment in favor of Appellees Aubrey
Elenis, Director of the Colorado Civil Rights Division
(the “Director”), Anthony Aragon, Ulysses J. Chaney,
Miguel Rene Elias, Carol Fabrizio, Heidi Hess, Rita
Lewis, and Jessica Pocock, members of the Colorado
Civil Rights Commission (the “Commission”), and
Phil Weiser, Colorado Attorney General (collectively,
“Colorado”). Appellants challenge Colorado’s Anti-

3
Discrimination Act (“CADA”) on free speech, free
exercise, and vagueness and overbreadth grounds.
As to our jurisdiction, we hold that Appellants
have standing to challenge CADA. As to the merits,
we hold that CADA satisfies strict scrutiny, and thus
permissibly compels Appellants’ speech. We also hold
that CADA is a neutral law of general applicability,
and that it is not unconstitutionally vague or
overbroad. Accordingly, exercising jurisdiction under
28 U.S.C. § 1291, we affirm the district court’s grant
of summary judgment in favor of Colorado.
II. Background
A. Factual Background
1. CADA
CADA restricts a public accommodation’s ability
to refuse to provide services based on a customer’s
identity. Specifically, CADA defines a public
accommodation as “any place of business engaged in
any sales to the public and any place offering services,
facilities, privileges, advantages, or accommodations
to the public.” Colo. Rev. Stat. § 24-34-601(1).
Exempted from CADA’s definition of public
accommodations are places that are “principally used
for religious purposes.” Id.
Under CADA’s “Accommodation Clause,” a public
accommodation may not:
directly or indirectly . . . refuse . . . to an
individual or a group, because of . . .
sexual orientation . . . the full and equal
enjoyment of the goods, services,
facilities, privileges, advantages, or

4
accommodations of a place of public
accommodation . . . .
Colo. Rev. Stat. § 24-34-601(2)(a).
Under CADA’s “Communication Clause,” a public
accommodation also may not:
directly or indirectly . . . publish . . . any
. . . communication . . . that indicates
that the full and equal enjoyment of the
goods, services, facilities, privileges,
advantages, or accommodations of a
place of public accommodation will be
refused . . . or that an individual’s
patronage . . . is unwelcome,
objectionable,
unacceptable,
or
undesirable because of . . . sexual
orientation . . . .
Id.
CADA exempts certain sex-based restrictions from
the Accommodation Clause and Communication
Clause. Specifically, under CADA, “it is not a
discriminatory practice for a person to restrict
admission to a place of public accommodation to
individuals of one sex if such restriction has a bona
fide relationship to the goods, services, facilities,
privileges, advantages, or accommodations of such
place of public accommodation.” Colo. Rev. Stat. § 2434-601(3).
CADA provides several different means of
enforcement. A person alleging a violation of CADA
can bring a civil action in state court. The state court
may levy a fine of “not less than fifty dollars nor more

5
than five hundred dollars for each violation.” Colo.
Rev. Stat. § 24-34-602(1)(a). A complainant can also
file charges alleging discrimination with the Colorado
Civil Rights Division. The Commission, individual
Commissioners, or the Colorado Attorney General
may also independently file charges alleging
discrimination “when they determine that the alleged
discriminatory or unfair practice imposes a
significant societal or community impact.” Aplts.’
App. at 2-315, ¶ 7. The Director of the Civil Rights
Division then investigates the allegations and
determines whether the charge is supported by
probable cause. If probable cause is found, the
Director provides the parties with written notice and
commences a compulsory mediation. If mediation
fails, a hearing may be held before the Colorado Civil
Rights Commission, a single Commissioner, or an
administrative law judge. If a violation is found after
a hearing, the Commission may issue a cease and
desist order against the offending public
accommodation.
In a different case, Colorado enforced CADA
against a bakery that, because of its owner’s religious
beliefs, refused to provide custom cakes that
celebrated same-sex marriages. That case eventually
made its way up to the United States Supreme Court,
where the Court ruled in favor of the baker. See
Masterpiece Cakeshop, Ltd. v. Colorado Civil Rights
Comm’n, 138 S. Ct. 1719 (2018). There, the Court held
that Colorado violated the Free Exercise Clause by
enforcing CADA in a manner “inconsistent with the
State’s obligation of religious neutrality.” Id. at 1723.
The Court relied, in part, on statements made by a
Commissioner who disparaged the baker’s religious

6
beliefs when the Commission adjudicated that case.
Id. at 1729. The Court also noted that, on at least
three other occasions, Colorado declined to enforce
CADA against other bakers who refused to create
custom cakes that disparaged same-sex marriages.
Id. at 1730.
At a public meeting held a few days after the
Court’s ruling in Masterpiece Cakeshop, a single
Commissioner opined that, despite the Court’s ruling,
the Commissioner who was referenced in Masterpiece
Cakeshop did not say “anything wrong.” Aplts.’ App.
at 3-609. Others at that hearing, however, including
Director Elenis, voiced agreement with the Court’s
ruling and their commitment to follow that ruling.
See, e.g., id. at 3-606 (Director Elenis: “So in these
cases going forward, Commissioners and ALJs and
others, including the Staff at the Division, have to be
careful how these issues are framed so that it’s clear
that full consideration was given to sincerely—what
is termed as sincerely-held religious objections.”).
2. Appellants
303 Creative is a for-profit, graphic and website
design company; Ms. Smith is its founder and sole
member-owner. Appellants are willing to work with
all people regardless of sexual orientation. Appellants
are also generally willing to create graphics or
websites for lesbian, gay, bisexual, or transgender
(“LGBT”) customers. Ms. Smith sincerely believes,
however, that same-sex marriage conflicts with God’s
will. Appellants do not yet offer wedding-related
services but intend to do so in the future. Consistent
with Ms. Smith’s religious beliefs, Appellants intend
to offer wedding websites that celebrate opposite-sex

7
marriages but intend to refuse to create similar
websites that celebrate same-sex marriages.
Appellants’ objection is based on the message of the
specific website; Appellants will not create a website
celebrating same-sex marriage regardless of whether
the customer is the same-sex couple themselves, a
heterosexual friend of the couple, or even a
disinterested wedding planner requesting a mock-up.
As part of the expansion, Appellants also intend to
publish a statement explaining Ms. Smith’s religious
objections (the “Proposed Statement”):
These same religious convictions that
motivate me also prevent me from
creating websites promoting and
celebrating ideas or messages that
violate my beliefs. So I will not be able to
create websites for same-sex marriages
or any other marriage that is not
between one man and one woman. Doing
that would compromise my Christian
witness and tell a story about marriage
that contradicts God’s true story of
marriage – the very story He is calling
me to promote.
Aplts.’ App. at 2-326 (¶ 91).
Appellants have not yet offered wedding-related
services, or published the Proposed Statement,
because Appellants are unwilling to violate CADA.
B. Procedural Background
Appellants brought a pre-enforcement challenge
to CADA in the United States District Court for the
District of Colorado. Appellants alleged a variety of

8
constitutional violations, including that CADA’s
Accommodation Clause and Communication Clause
violated the Free Speech and Free Exercise Clauses
of the First Amendment, and that CADA’s
Communication Clause violated the Due Process
Clause of the Fourteenth Amendment because it was
facially overbroad and vague. Colorado moved to
dismiss. At a motions hearing, both parties agreed
there were no disputed material facts and that the
matter should be resolved through summary
judgment.
After summary judgment briefing had concluded,
the district court found that Appellants only
established standing to challenge the Communication
Clause, and not the Accommodation Clause. The
district court initially declined to rule on the merits of
Appellants’ Communication Clause challenges,
however, because Masterpiece Cakeshop was then
pending before the United States Supreme Court.
After the Supreme Court’s ruling in Masterpiece
Cakeshop, the district court denied Appellants’
summary judgment motion on its Communication
Clause challenges. In doing so, the district court
“assume[d]
the
constitutionality
of
the
Accommodation Clause . . . .” Id. at 3-568. The district
court also ordered Appellants to show cause why final
judgment should not be granted in favor of Colorado.
Id. at 3-588. After additional briefing, the district
court granted summary judgment in favor of
Colorado.
Appellants timely appealed the district court’s
final judgment. They assert that the district court
erred (1) in determining that Appellants lack

9
standing to challenge the Accommodation Clause; (2)
in assuming the Accommodation Clause does not
compel speech and in ruling that the Communication
Clause does not compel speech; (3) in rejecting
Appellants’ Free Exercise challenges to both Clauses;
and (4) in rejecting Appellants’ overbreadth and
vagueness challenges to the Communication Clause.
III.

Analysis

A. Standard of Review
Summary judgment is warranted when the
movant is entitled to “judgment as a matter of law” in
the absence of a “genuine dispute as to any material
fact.” Fed. R. Civ. P. 56(a). We review the entry of
summary judgment de novo, “applying the same
standard for summary judgment that applied in the
district court.” Sandoval v. Unum Life Ins. Co. of Am.,
952 F.3d 1233, 1236 (10th Cir. 2020); see also Lincoln
v. BNSF Ry. Co., 900 F.3d 1166, 1180 (10th Cir. 2018)
(stating that when reviewing summary judgment “we
need not defer to factual findings rendered by the
district court”) (citation and internal quotation marks
omitted).
We view the evidence and draw all
reasonable inferences in favor of the non-movant.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255
(1986). Where the activity in question is arguably
protected by the First Amendment, the court has “an
obligation to make an independent examination of the
whole record in order to make sure that the judgment
does not constitute a forbidden intrusion on the field
of free expression.” Citizens for Peace in Space v. City
of Colo. Springs, 477 F.3d 1212, 1219 (10th Cir. 2007)
(quoting Bose Corp. v. Consumers Union of United
States, Inc., 466 U.S. 485, 499 (1984)).

10
B. Standing
“Standing is a jurisdictional issue that may be
raised by the court at any time.” Buchwald v. Univ. of
N.M. Sch. of Med., 159 F.3d 487, 492 (10th Cir. 1998).
Whether a party has standing is a question of law
reviewed de novo. Comm. to Save the Rio Hondo v.
Lucero, 102 F.3d 445, 447 (10th Cir. 1996).
“Article III of the Constitution limits the
jurisdiction of federal courts to ‘Cases’ and
‘Controversies.’” Susan B. Anthony List v. Driehaus,
573 U.S. 149, 157 (2014) (quoting U.S. Const. art. III,
§ 2). The doctrine of standing serves as “[o]ne of
those landmarks” in identifying “the ‘Cases’ and
‘Controversies’ that are of the justiciable sort referred
to in Article III.” Lujan v. Defenders of Wildlife, 504
U.S. 555, 560 (1992). Under Article III, standing
requires at least three elements: injury in fact,
causation, and redressability. Id. at 560–61.
1. Injury in Fact
An injury in fact is “an invasion of a legally
protected interest which
is (a) concrete and
particularized and (b) actual or imminent, not
conjectural
or
hypothetical.”
Initiative
and
Referendum Inst. v. Walker, 450 F.3d 1082, 1087 (10th
Cir. 2006) (en banc) (quoting Lujan, 504 U.S. at 560).
In the context of a pre-enforcement challenge, to show
an injury in fact, a party must allege “an intention
to engage in a course of conduct arguably affected
with a constitutional interest, but proscribed by a
statute, and there exists a credible threat of
prosecution thereunder.” SBA List, 573 U.S. at 159
(quoting Babbitt v. Farm Workers, 442 U.S. 289, 298
(1979)); see also Colo. Outfitters Ass’n v. Hickenlooper,

11
823 F.3d 537, 545 (10th Cir. 2016). Article III does not
require the plaintiff to risk “an actual arrest,
prosecution, or other enforcement action.” SBA List,
573 U.S. at 158 (citing Steffel v. Thompson, 415 U.S.
452, 459 (1974)).
Reviewing the issue de novo, we conclude that
Appellants have shown an injury in fact. Appellants
have sufficiently demonstrated both an intent to
provide graphic and web design services to the public
in a manner that exposes them to CADA liability, and
a credible threat that Colorado will prosecute them
under that statute.
Although not challenged by Colorado, see
Colorado’s Br. at 26, we are satisfied that Appellants
have shown an “intention to engage in a course of
conduct arguably affected with a constitutional
interest.” SBA List, 573 U.S. at 159. Although
Appellants have not yet offered wedding website
services, Ms. Smith has been employed as a graphic
and web designer in the past. Appellants have also
provided clear examples of the types of websites they
intend to provide, as well as the intended changes to
303 Creative’s webpage. And Ms. Smith holds a
sincere religious belief that prevents her from
creating websites that celebrate same-sex marriages.
We are also satisfied that Appellants’ intended
“course of conduct” 1 is at least “arguably . . .
proscribed by [the] statute,” i.e., CADA. SBA List, 573
We refer to Appellants’ “course of conduct” in applying the
standard under SBA List for determining Article III standing;
our discussion as to standing does not indicate whether
Appellants’ “course of conduct” is speech or commercial conduct.
1

12
U.S. at 162 (alterations in original). In briefing the
merits of its claims, Appellants, somewhat
contradictorily, assert that “Colorado concedes that
[Appellants] serve[] regardless of status, do[] not
discriminate against LGBT persons, and make[] only
message-based referrals.” Aplts.’ Br. at 31–32. True
enough, the parties stipulated to the district court
that Appellants are “willing to work with all people
regardless of classifications such as race, creed,
sexual orientation, and gender.” Aplts.’ App. at 2-322
(¶ 64). Thus, it might appear that Appellants have
no exposure to liability under CADA. Although
neither party presses this argument on appeal, we
address it to assure ourselves of jurisdiction.
Buchwald, 159 F.3d at 492.
To be sure, some of Appellants’ intended course of
conduct would not violate CADA, and thus would not
give rise to standing. For example, Appellants are
willing to “create custom graphics and websites for
gay, lesbian, or bisexual clients . . . so long as the
custom graphics and websites do not violate
[Appellants’] religious beliefs, as is true for all
customers.” Aplts.’ App. 2-322 (¶ 65). Thus,
Appellants are not injured because CADA might
“compel” them to create a website announcing a
birthday party for a gay man; that is something
Appellants would do willingly. Nor are Appellants
injured because CADA might “compel” them to create
a website announcing “God is Dead”; Colorado
concedes CADA would not apply if Appellants would
not produce such a website for any customers. See
Colorado’s Br. at 42. But, of course, neither birthday
parties nor Nietzschean pronouncements are the
focus of Appellants’ challenge.

13
Setting aside other hypotheticals, we focus on
what is to us the most obvious scenario: Appellants
refuse a same-sex couple’s request for a website
celebrating their wedding but accept an opposite-sex
couple’s identical request for a website celebrating
their wedding. Considering this scenario, Appellants’
injury becomes clear. Although Appellants might
comply with CADA in other circumstances, at least
some of Appellants’ intended course of conduct
arguably would “deny to an individual . . . because of
. . . sexual orientation . . . the full and equal enjoyment
of [goods and services].” Colo. Rev. Stat. § 24-34601(2)(a).
A couple’s request for a wedding website is, at
least arguably, “inextricably bound up with” the
couple’s sexual orientation. Bostock v. Clayton Cnty.,
Ga., 140 S. Ct. 1731, 1742 (2020). As the Supreme
Court explained in Bostock, “[an] employer’s ultimate
goal might be to discriminate on the basis of sexual
orientation. But to achieve that purpose the employer
must, along the way, intentionally treat an employee
worse based in part on that individual’s sex.” Id. So
too here—although Appellants’ “ultimate goal” might
be to only discriminate against same-sex marriage, to
do so Appellants might also discriminate against
same-sex couples. As a result, Appellants’ refusal may
be “because of” the customers’ sexual orientation, and
thereby expose them to liability under CADA. See also
Lawrence v. Texas, 539 U.S. 558, 583 (2003)
(O’Connor, J., concurring) (anti-sodomy law does not
target “conduct,” but “is instead directed toward gay
persons as a class”). We do not decide whether
Appellants’ (or any other businesses’) conscience- or
message-based objections are a defense against

14
CADA; we only hold that such objections are at least
“arguably . . . proscribed by [the] statute.” SBA List,
573 U.S. at 162 (quoting Babbitt, 442 U.S. at 298)
(alterations in original).
Colorado asserts that, even if Appellants have
shown an intent to violate CADA, Appellants have not
shown a credible threat of prosecution. Specifically,
Colorado questions whether Appellants will “actually
den[y] services based on a person’s sexual orientation”
and whether such a person will “file[] a charge of
discrimination.” Colorado’s Br. at 27; see also id. at
33–35. According to Colorado, Appellants’ fear of
prosecution is not credible because it requires the
court to speculate about the actions of Appellants’
would-be customers.
We disagree. Appellants have a credible fear of
prosecution because Appellants’ liability under CADA
and Colorado’s enforcement of CADA are both
“sufficiently imminent.” SBA List, 573 U.S. at 159.
Appellants’ potential liability is inherent in the
manner they intend to operate—excluding customers
who celebrate same-sex marriages. Thus, Appellants
are rightfully wary of offering wedding-related
services and may challenge CADA as chilling their
speech. See id. at 163 (“Nothing in this Court’s
decisions require a plaintiff who wishes to challenge
the constitutionality of a law to confess that he will in
fact violate that law.”); also Walker, 450 F.3d at 1089
(pre-enforcement plaintiff need not show “a present
intention to engage in [proscribed] speech at a specific
time in the future”).
Contrary to Colorado’s assertion, Appellants’ fears
do not “rest[] on guesswork” or “a highly attenuated

15
chain of possibilities.” Colorado’s Br. at 29. If
anything, it is Colorado that invites this court to
speculate. Assuming Appellants offer weddingrelated services to the public as they say they will,
there is no reason to then conclude that Appellants
will fail to attract customers. Nor is there reason to
conclude that only customers celebrating opposite-sex
marriages will request Appellants’ services. In short,
we find nothing “imaginary or speculative” about
Appellants’ apprehensions that they may violate
CADA if they offer wedding-based services in the
manner that they intend. SBA List, 573 U.S. at 165.
If Appellants violate CADA, it is also “sufficiently
imminent” that Colorado will enforce that statute
against Appellants. In SBA List, the Supreme Court
described at least three factors to be used in
determining a credible fear of prosecution: (1)
whether the plaintiff showed “past enforcement
against the same conduct”; (2) whether authority to
initiate charges was “not limited to a prosecutor or an
agency” and, instead, “any person” could file a
complaint against the plaintiffs; and (3) whether the
state disavowed future enforcement. Id. at 164–65.
All three factors indicate Appellants have a
credible fear of prosecution. First, Colorado has a
history of past enforcement against nearly identical
conduct—i.e., Masterpiece Cakeshop, which, at the
time Appellants filed their complaint, had been
litigated through various state administrative and
court proceedings for over two years. Aplts.’ App. at 2317 (¶ 25). Although Appellants create websites—not
cakes—this distinction does not diminish Appellants’
fear of prosecution; there is no indication that
Colorado will enforce CADA differently against

16
graphic designers than bakeries. Second, any (would
be) customer who requests a website for a same-sex
wedding and is refused may file a complaint and
initiate a potentially burdensome administrative
hearing against Appellants. Aplts.’ App. at 2-314 (¶
4). Thus, Appellants must fear not only charges
brought by Colorado, but charges brought by any
person who might request a website celebrating
same-sex marriage. And third, Colorado declines to
disavow future enforcement against Appellants.
Colorado’s Br. at 29.
Colorado asks us to conclude that there is no
“active enforcement by the state,” because, aside from
Masterpiece Cakeshop, Appellants only identify three
similar cases, each of which ended with a “no probable
cause” finding. Colorado’s Br. at 33–34. Yet, those
cases involved businesses that supported same-sex
marriage. Considering all four cases collectively,
Appellants have a credible fear that CADA will be
enforced against businesses that object to same-sex
marriage. Indeed, the Supreme Court has found that
Colorado’s non-enforcement against businesses that
support same-sex marriage evinced a Free Exercise
violation. See Masterpiece Cakeshop, 138 S. Ct. at
1730 (“Another indication of hostility is the difference
in treatment between [Jack] Phillips’ case [in
Masterpiece Cakeshop] and the cases of other bakers
who objected to a requested cake on the basis of
conscience and prevailed before the Commission.”).
Colorado also asserts that it “need not ‘refute and
eliminate all possible risk that the statute might be
enforced’ to demonstrate a lack of a case or
controversy.” Colorado’s Br. at 29 (quoting Mink v.
Suthers, 482 F.3d 1244, 1255 (10th Cir. 2007)).

17
Although not dispositive, non-disavowal of future
enforcement remains a relevant factor for courts to
consider in determining standing. See, e.g., Holder v.
Humanitarian Law Project, 561 U.S. 1, 16 (2010)
(considering government’s non-disavowal of future
enforcement). Further, in the case upon which
Colorado relies, the attorney general publicly
disavowed enforcement against the plaintiff. Mink,
482 F.3d at 1255 n.8. Here, Attorney General Weiser
has made no similar promise to Appellants. Indeed,
Colorado’s strenuous assertion that it has a
compelling interest in enforcing CADA indicates that
enforcement is anything but speculative. See
Colorado’s Br. at 67 (“That other website designers
are willing to serve the LGBT community is of no
moment”). 2
In short, on the summary-judgment record
presented, we conclude that Appellants show an
injury in fact because they intend to discriminate in a
manner that is arguably proscribed by CADA, and
they show a credible fear that Colorado will enforce
CADA against them.

For similar reasons, Colorado’s reliance on the Supreme
Court’s recent decision in California v. Texas is misplaced. 141
S. Ct. 2104 (2021). In that case, the Supreme Court found that
plaintiffs lacked standing to challenge an Affordable Care Act
provision that carried a penalty of $0, and thus had “no means
of enforcement.” Id. at 2114. By contrast, CADA imposes a
minimum penalty of $50. Colo. Rev. Stat. § 24-34-602(1)(a).
Colorado provides no indication that those statutory penalties
are unenforceable. Colorado’s repeated refutations of both
actual and threatened enforcement are puzzling, to say the
least.
2

18
2. Causation and Redressability
Colorado
also
challenges
causation
and
redressability as to Director Elenis and Attorney
General Weiser. Specifically, Colorado asserts that
those defendants, unlike the Commission, lack
“enforcement authority” under CADA, and thus do
not cause and cannot redress Appellants’ injuries.
Colorado’s Br. at 30.
“[T]he causation element of standing requires the
named defendants to possess authority to enforce the
complained-of provision.” Bronson v. Swensen, 500
F.3d 1099, 1110 (10th Cir. 2007). Causation does not
require a plaintiff to limit a suit to only the most
culpable defendants; rather, causation merely
requires that the plaintiff’s injury is “fairly traceable”
to those defendants. Id. at 1109. Redressability
requires “that a favorable judgment would
meaningfully redress the alleged injury.” Walker, 450
F.3d at 1098.
Here, Appellants’ injury is not merely the risk of
complaints filed by private customers—it also
includes the burden of administrative proceedings
before the Director and the prospect of litigation
brought by the Attorney General. Those injuries are
“fairly traceable” to Director Elenis and Attorney
General Weiser. Colorado concedes that, under
CADA, Director Elenis may “investigate[] charges of
discrimination, issue[] subpoenas to compel
information, issue[] a determination of probable
cause or no probable cause, and conduct[] mandatory
mediation if cause is found, or dismiss[] if no cause is
found.” Colorado’s Br. at 30. Colorado also concedes
that, under CADA, Attorney General Weiser has

19
“limited” enforcement authority. Id. at 31. Thus, the
traceability issues in this case differ from those in
Bronson. There, the defendant was a county clerk who
refused to issue a marriage license, but who had no
authority to enforce the criminal statute at issue. 500
F.3d at 1111. Here, both Director Elenis and Attorney
General Weiser have authority to enforce CADA.
Just as Appellants’ injury is traceable to Director
Elenis and Attorney General Weiser, enjoining
Director Elenis and Attorney General Weiser from
enforcing CADA would redress Appellants’ fears that
they may be subject to investigation, or face charges
brought by the Attorney General. Accordingly, we
conclude that Appellants have established Article III
standing. 3
3. Ripeness
For the same reasons Appellants have established
standing, we are satisfied that this case is ripe. See
SBA List, 573 U.S. at 157 n.5 (acknowledging that, in
pre-enforcement challenges, standing and ripeness
often “boil down to the same question”) (quoting
MedImmune, Inc. v. Genentech, Inc., 549 U.S. 118,
128 n.8 (2007)). Certainly, the record would be better
developed, and the legal issues would be clearer, if
Appellants had denied services to a customer, that
customer filed a complaint, and that complaint was
adjudicated through the appropriate administrative
and judicial channels. Yet, as discussed above, Article
Because we conclude that Appellants have standing, we
decline to address whether the district court could assume the
constitutionality of the Accommodation Clause after first finding
Appellants lacked standing to challenge that Clause.
3

20
III does not require a pre- enforcement plaintiff to risk
arrest or actual prosecution before bringing claim in
federal court. Any prudential considerations
presented in this case do not prevent us from
exercising our “virtually unflagging” obligation to
hear cases within our jurisdiction. SBA List, 573 U.S.
at 167 (citing Lexmark Int’l, Inc. v. Static Control
Components, Inc., 572 U.S. 118, 126 (2014)).

C. Free Speech
It is a “fundamental rule of protection under the
First Amendment, that a speaker has the autonomy
to choose the content of his own message.” Hurley v.
Irish-American Gay, Lesbian and Bisexual Group of
Boston, 515 U.S. 557, 573 (1995); Rumsfeld v. Forum
for Academic and Institutional Rights, Inc., 547 U.S.
47, 61 (2006) (recognizing the principle “that freedom
of speech prohibits the government from telling
people what they must say”).

1. The Accommodation Clause
a. Compelled Speech
Appellants’ creation of wedding websites is pure
speech. The websites Appellants intend to offer
“celebrate and promote the couple’s wedding and
unique love story” by combining custom text,
graphics, and other media. Aplts.’ App. at 2-325 (¶¶
81, 84). The websites consequently express approval
and celebration of the couple’s marriage, which is
itself often a particularly expressive event.
See
Obergefell v. Hodges, 576 U.S. 644, 657 (2015)
(recognizing “untold references to the beauty of
marriage in religious and philosophical texts
spanning time, cultures, and faiths, as well as in art

21
and literature in all their forms”). Appellants’ custom
websites are similar to wedding videos and
invitations, both of which have also been found to be
speech. See Telescope Media Grp. v. Lucero, 936 F.3d
740, 751–52 (8th Cir. 2019) (wedding videographers
engaged in speech); Brush & Nib Studio, LC v. City
of Phoenix, 448 P.3d 890, 908 (Ariz. 2019) (custom
wedding invitations are pure speech).
Our analysis relies on the custom and unique
nature of Appellants’ services, rather than their
chosen medium. As Colorado asserts, the mere fact
that Appellants’ trade is “in part initiated, evidenced,
or carried out by means of language, either spoken,
written, or printed” is not sufficient to show a speech
interest. Colorado’s Br. at 44 (quoting FAIR, 547
U.S. at 62). In FAIR, the Supreme Court rejected
arguments that the Solomon Amendment compelled
speech by requiring law schools to accommodate
military recruiters, including sending students
emails on behalf of military recruiters or providing
military recruiters with access to law school facilities.
The Court noted that “accommodating the military’s
message does not affect the law schools’ speech,
because the schools are not speaking when they host
interviews and recruiting receptions . . . . [A] law
school’s decision to allow recruiters on campus is not
inherently expressive.” 547 U.S. at 64. In contrast,
here, creating a website (whether through words,
pictures, or other media) implicates Appellants’
unique creative talents, and is thus inherently
expressive.
Appellants’ own speech is implicated even where
their services are requested by a third-party. In
Hurley, the Supreme Court recognized a parade

22
organizer’s Free Speech interests, despite the fact
that the organizer lacked a “particularized message”
or that the speech would be initially generated by the
participants, and not the organizer. Hurley, 515 U.S.
at 569–70. The speech element is even clearer here
than in Hurley because Appellants actively create
each website, rather than merely hosting customergenerated content on Appellants’ online platform.
Compare Miami Herald Pub. Co. v. Tornillo, 418 U.S.
241, 258 (1974) (“A newspaper is more than a passive
receptacle or conduit for news, comment, and
advertising.”), with FAIR, 547 U.S. at 64 (“In this
case, accommodating the military’s message does not
affect the law school’s speech, because the schools are
not speaking when they host interviews and
recruiting receptions.”), and PruneYard Shopping
Ctr. v. Robins, 447 U.S. 74, 85 (1980) (shopping center
may be forced to “use his property as a forum for the
speech of others”).
Nor does a profit motive transform Appellants’
speech into “commercial conduct.” See Colorado’s Br.
at 37. The First Amendment’s protections against
compelled speech are “enjoyed by business
corporations generally and by ordinary people
engaged in unsophisticated expression as well as by
professional publishers.” Hurley, 515 U.S. at 574.
Thus, as the Supreme Court has recognized, for-profit
businesses may bring compelled speech claims. See,
e.g., Tornillo, 418 U.S. at 254 (for-profit newspaper
cannot be compelled to accommodate political
candidates’ “right of reply”); Pac. Gas and Elec. Co. v.
Public Utilities Comm’n of Cal., 475 U.S. 1, 9 (1986)
(utility company cannot be compelled to include
critic’s speech in utility company’s billing envelopes).

23
The Accommodation Clause also “compels”
Appellants to create speech that celebrates same-sex
marriages. Colorado asserts that the Accommodation
Clause only regulates Appellants’ conduct in picking
customers and does not regulate Appellants’ speech.
See Colorado’s Br. at 40. Yet, this argument is
foreclosed by Hurley. As with the Massachusetts
public accommodations law in Hurley, CADA has the
effect “of declaring the sponsors’ speech itself to be the
public accommodation.” Hurley, 515 U.S. at 573. By
compelling Appellants to serve customers they would
otherwise refuse, Appellants are forced to create
websites— and thus, speech—that they would
otherwise refuse.
Colorado also asserts that the Accommodation
Clause does not require a specific message or
statement unrelated to regulating conduct. See
Colorado’s Br. at 46 (citing Wooley v. Maynard, 430
U.S. 705 (1977) and W. Va. Bd. of Educ. v. Barnette,
319 U.S. 624 (1943)). Yet, again, neither was a specific
message or statement required in Hurley. Further, as
the Supreme Court explained in FAIR, “compelledspeech cases are not limited to the situation in which
an individual must personally speak the
government’s message.” FAIR, 547 U.S. at 63. Relying
on Hurley, the Court explained in FAIR that
compelled speech may be found where “the
complaining speaker’s own message was affected by
the speech it was forced to accommodate.” Id. So
here, the result of the Accommodation Clause is that
Appellants are forced to create custom websites they
otherwise would not.
Because the Accommodation Clause compels
speech in this case, it also works as a content-based

24
restriction. See Nat’l Inst. of Family and Life
Advocates v. Becerra, 138 S. Ct. 2361, 2371 (2018)
(“By requiring petitioners to inform women how they
can obtain state-subsidized abortions . . . the licensed
notice plainly ‘alters the content’ of petitioners’
speech.”) (quoting Riley v. Nat’l Fed. of Blind of N.C.,
Inc., 487 U.S. 781, 795 (1988)). Appellants cannot
create websites celebrating opposite-sex marriages,
unless they also agree to serve customers who request
websites celebrating same-sex marriages. CADA’s
purpose and history also demonstrate how the statute
is a content-based restriction. As Colorado makes
clear, CADA is intended to remedy a long and
invidious history of discrimination based on sexual
orientation. See Colorado’s Br. at 65–66. Thus, there
is more than a “substantial risk of excising certain
ideas or viewpoints from the public dialogue.” Turner
Broad. Sys., Inc. v. FCC, 512 U.S. 622, 642 (1994).
Eliminating such ideas is CADA’s very purpose. For
similar reasons, the Supreme Court in Hurley
concluded that eliminating discriminatory bias was a
“decidedly fatal objective” in light of a Free Speech
challenge. Hurley, 515 U.S. at 579; see also TMG, 936
F.3d at 753 (Minnesota public accommodations law
operates as a content-based restriction “by requiring
the Larsens to convey ‘positive’ messages about samesex weddings”); B&N, 448 P.3d at 914 (Arizona public
accommodations law is facially neutral, but operates
as a content-based restriction).
b.

Strict Scrutiny

Whether viewed as compelling speech or as a
content-based restriction, the Accommodation Clause
must satisfy strict scrutiny—i.e., Colorado must show
a compelling interest, and the Accommodation Clause

25
must be narrowly tailored to satisfy that interest.
Reed v. Town of Gilbert, Ariz., 576 U.S. 155, 164
(2015).
Here, Colorado has a compelling interest in
protecting both the dignity interests of members of
marginalized groups and their material interests in
accessing the commercial marketplace. See, e.g.,
Roberts v. U.S. Jaycees, 468 U.S. 609, 624 (1984)
(Minnesota public accommodation law’s goals of
“eliminating discrimination and assuring its citizens
equal access to publicly available goods and services
. . . plainly serves compelling state interests of the
highest order”). Colorado’s interest in preventing both
dignitary and material harms to LGBT people is well
documented. Colorado has a unique interest in
remedying its own discrimination against LGBT
people. See Colorado’s Br. at 65 (discussing Romer v.
Evans, 517 U.S. 620, 630, 634 (1996) (holding that
Colorado state constitutional amendment preventing
protected status for LGBT people violated the Equal
Protection Clause)). Even setting Colorado’s history
aside, Colorado, like many other states, has an
interest in preventing ongoing discrimination against
LGBT people. See Br. of Lambda Legal Defense and
Education Fund as amicus curiae, at 15 (describing
ongoing discrimination against LGBT people in
Colorado); Br. of Mass., et al. as amicus curiae at 7–8
(describing laws in other states that address
discrimination based on sexual orientation).
Nor do we construe Appellants’ arguments as
challenging Colorado’s interest in combating
discrimination generally. Rather, Appellants assert
Colorado fails to establish a compelling interest
because “[Appellants] do[] not discriminate against

26
anyone,” and because “Colorado can curb
discriminatory conduct without compelling or
silencing [Appellants].” Aplts.’ Br. at 54; see also
Aplts.’ Reply at 26. Appellants do not appear to deny
that, at least in other contexts, LGBT people may
suffer discrimination, and Colorado may have an
interest in remedying that harm. Thus, Appellants’
arguments more appropriately address whether
CADA is narrowly tailored—not whether CADA
furthers a compelling interest.
The Accommodation Clause is not narrowly
tailored to preventing dignitary harms. As the
Supreme Court has repeatedly made clear, “[w]hile
the law is free to promote all sorts of conduct in place
of harmful behavior, it is not free to interfere with
speech for no better reason than promoting an
approved message or discouraging a disfavored one,
however enlightened either purpose may strike the
government.” Hurley, 515 U.S. at 579; see also Boy
Scouts of Am. v. Dale, 530 U.S. 640, 659 (2000) (“The
state interests embodied in New Jersey’s public
accommodations law [prohibiting expulsion of a
LGBT scoutmaster] do not justify such a severe
intrusion on the Boy Scouts’ rights to freedom of
expressive association.”). So too here. As compelling
as Colorado’s interest in protecting the dignitary
rights of LGBT people may be, Colorado may not
enforce that interest by limiting offensive speech.
Indeed, the First Amendment protects a wide range
of arguably greater offenses to the dignitary interests
of LGBT people. See Snyder v. Phelps, 562 U.S. 443
(2011) (extending First Amendment protections to
funeral picketers).

27
The Accommodation Clause is, however, narrowly
tailored to Colorado’s interest in ensuring “equal
access to publicly available goods and services.” U.S.
Jaycees, 468 U.S. at 624.
When regulating
commercial entities, like Appellants, public
accommodations laws help ensure a free and open
economy. Thus, although the commercial nature of
Appellants’ business does not diminish their speech
interest, it does provide Colorado with a state interest
absent when regulating non- commercial activity.
Compare id., 468 U.S. at 626 (recognizing “the
changing nature of the American economy and of the
importance, both to the individual and to society, of
removing the barriers to economic advancement and
political and social integration that have historically
plagued certain disadvantaged groups”), with Dale,
530 U.S. at 657 (“As the definition of ‘public
accommodation’ has expanded from clearly
commercial entities, such as restaurants, bars, and
hotels, to membership organizations such as the Boy
Scouts, the potential for conflict between state public
accommodations laws and the First Amendment
rights of organizations has increased.”).
The Supreme Court’s decision in Heart of Atlanta
Motel v. United States illustrates the commercial
consequences of public accommodation laws. 379 U.S.
241 (1964). In that case, the Court upheld Title II of
the Civil Rights Act of 1964 under Congress’s
Commerce Clause powers. In doing so, the Court
recognized the “overwhelming evidence of the
disruptive effect that racial discrimination has had on
28 commercial intercourse.” Id. at 257. The Court
recited evidence of racial discrimination by hotels and
motels, which was so pervasive that some travelers

28
relied on a special guidebook listing nondiscriminatory businesses. Id. at 253. Thus, the
cumulative result of those discriminatory practices
discouraged interstate commerce.
We do not define Colorado’s interest as “ensuring
access to a particular person’s unique, artistic product
[i.e., Appellants’].” Dissent at 27 (emphasis in
original); see also id. at 27 n.8. We recognize access to
Appellants’ services may be the consequence of
enforcing CADA, but that is not to say it is CADA’s
purpose or Colorado’s primary interest. For example,
CADA does not apply only to public accommodations
of a certain level of quality or artistic merit. In fact,
CADA is silent as to these attributes, leaving their
appraisal to consumers. Nor does CADA conscript
Appellants’ services for some collective or
redistributive end. CADA only applies here because
Appellants intend to sell their unique services to the
public. The question then becomes whether
Colorado’s interest in ensuring access to the
marketplace generally still applies with the same
force to Appellants’ case specifically—i.e., “whether
[Colorado] has such an interest in denying an
exception to [Appellants].” Fulton, 141 S. Ct. at
1881.
Excepting Appellants from the Accommodation
Clause would necessarily relegate LGBT consumers
to an inferior market because Appellants’ unique
services are, by definition, unavailable elsewhere. As
discussed above, our analysis emphasizes the custom
and unique nature of Appellants’ services. For the
same reason that Appellants’ custom and unique
services are speech, those services are also inherently
not fungible. To be sure, LGBT consumers may be

29
able to obtain wedding-website design services from
other businesses; yet, LGBT consumers will never be
able to obtain wedding-related services of the same
quality and nature as those that Appellants offer.
Thus, there are no less intrusive means of providing
equal access to those types of services. 4
Amici dispute whether subjecting businesses to
the Accommodation Clause ultimately chills
commerce by discouraging businesses from entering
the market, due to fears that they will be compelled
to create objectionable products. Compare Br. of Law
and Economics Scholars as amicus curiae at 4
(enforcing the Accommodation Clause will “either
force unwilling associations or force the exit of a class
of market participants”), with Br. of Scholars of
Behavioral Science and Economics as amicus curiae
at 9 (asserting “markets cannot always be counted on
to ‘self-correct’ and produce a welfare-maximizing
outcome”). With respect to amici, we find the dispute
beside the point. This case does not present a
competitive market. Rather, due to the unique nature
of Appellants’ services, this case is more similar to a
monopoly. The product at issue is not merely “custommade wedding websites,” but rather “custom-made
The cumulative effect of discrimination also explains why
other statutory exemptions, such as sex-based discrimination
motivated by a “bona fide relationship,” are permissible. See
Aplts.’ Reply at 26–27. Such exemptions promote open
commerce as a whole and are consistent with Colorado’s
interest in ensuring access to the commercial marketplace. We
do not decide whether the “bona fide relationship” exemption
should apply to Appellants. See infra, III.D.1.b. We only hold
that the existence of that exemption does not require us to
craft new ones.
4

30
wedding websites of the same quality and nature as
those made by Appellants.” In that market, only
Appellants exist. And, as amici apparently agree,
monopolies present unique anti-discrimination
concerns. See Br. of Law and Economics Scholars at 9
(“The only exception to this principle is a monopoly
situation, in which consumers are faced with a sole
supplier who could decide for all sorts of reasons,
including invidious motives, to refuse to deal with a
group of potential consumers.”).
We are also unpersuaded by the Supreme Court of
Arizona’s analysis in Brush & Nib. There, the
Supreme Court of Arizona concluded that custom
wedding invitations are speech because they are not
fungible products, unlike a hamburger or pair of
shoes. B&N, 448 P.3d at 910. With that much we
agree—custom products often implicate speech. Yet,
the Supreme Court of Arizona then held that
exempting custom invitations from a public
accommodation law would not undermine the law’s
purpose. Id. at 916. Thus, ostensibly, the B&N Court
reasoned that any market harm was limited. We are
unconvinced. It is not difficult to imagine the
problems created where a wide range of custom-made
services are available to a favored group of people,
and a disfavored group is relegated to a narrower
selection of generic services. Thus, unique goods and
services are where public accommodation laws are
most necessary to ensuring equal access. 5

Elsewhere, the Dissent endorses our view that Appellants’
services are unique. See Dissent at 15 (“It is obvious to even the
most casual viewer that Ms. Smith is creating a customized art
product—which incorporates unique, expressive speech—for her
5

31
To be clear, we, like the Dissent, do not question
Appellants’ “sincere religious beliefs” or “good faith.”
Dissent at 1. Yet, we fail to see how Appellants’
sincerity or good faith should excuse them from
CADA. Appellants’ intent has no bearing on whether,
as a consequence, same-sex couples have limited
access to goods or services. For this reason, it is
unclear to us why the Dissent places such repeated
emphasis on Appellants’ “good faith.” See, e.g.,
Dissent at 21 (“Nor is Ms. Smith’s statement intended
to be derogatory or malicious.”); id. at 52 (“We must
presume [Ms. Smith] has reached her beliefs ‘based
on decent and honorable religious or philosophical
premises.’”) (quoting Obergefell, 576 U.S. at 672).
Further, as the Supreme Court has recently
reaffirmed, “religious beliefs need not be acceptable,
logical, consistent, or comprehensible to others in
order to merit First Amendment protection.” Fulton
v. City of Philadelphia, 141 S. Ct. 1868, 1876 (2021)
(citing Thomas v. Review Bd. of Ind. Employment
Security Div., 450 U.S. 707, 714 (1981)). To us,
whether an exception limits market access depends
upon the uniqueness of the public accommodation’s
customers.”). In doing so, we think the Dissent commits the same
error as the B&N court. The Dissent never explains how
Appellants’ services are unique when considering Appellants’
speech interests, but fungible when considering Colorado’s
interest in preventing material harms to consumers. To us,
Appellants’ services must either be unique for both analyses, or
fungible for both. Such consistency does not “cheapen” the
artistic value of Appellants’ services. Dissent at 29. It is
precisely because Appellants’ unique services are valuable that
exclusion is harmful. It is the Dissent that cheapens Appellants’
artistry by implying Appellants’ services are no better than those
available elsewhere.

32
goods and services—not the sincerity of the public
accommodation’s beliefs.
We also recognize that “compelled speech is deeply
suspect in our jurisprudence—and rightly so, given
the unique harms it presents.” Dissent at 10. Yet, at
the same time, “[t]he axiom that places of public
accommodation are open to everyone is deeply rooted
in the American legal system.” TMG, 936 F.3d at 763
(Kelly, J., concurring in part and dissenting in part).
Indeed, the Supreme Court has repeatedly
emphasized public accommodation laws’ vital
importance—even against Constitutional challenges.
See, e.g., Masterpiece Cakeshop, 138 S. Ct. at 1728 (“It
is unexceptional that Colorado law can protect gay
persons, just as it can protect other classes of
individuals, in acquiring whatever products and
services they choose on
the same terms and
conditions as are offered to other members of the
public.”); Hurley, 515 U.S. at 572 (“Provisions like
these are well within the State’s usual power to enact
when a legislature has reason to believe that a given
group is the
target of discrimination, and they do
not, as a general matter, violate the First or
Fourteenth Amendments.”); Heart of Atlanta Motel,
379 U.S. at 260 (“[I]n a long line of cases this Court
has rejected the claim that the prohibition of racial
discrimination in public accommodations interferes
with personal liberty.”). We resolve the tension
between these two lines of jurisprudence by holding
that enforcing CADA as to Appellants’ unique
services is narrowly tailored to Colorado’s interest in

33
ensuring equal
marketplace. 6

access

to

the

commercial

2. The Communication Clause
Appellants also assert that the Communication
Clause unconstitutionally abridges their Free Speech
rights. Specifically, Appellants intend to publish a
Proposed Statement on 303 Creative’s website,
stating Appellants “will not be able to create websites
for same-sex marriages or any other marriage that is
not between one man and one woman.” Aplts.’ App. at
2-364. Colorado responds that the Communication
Clause merely prohibits a public accommodation from
advertising what is already unlawful under the
Accommodation
Clause.
Specifically,
the
Communication Clause makes it unlawful for a public
accommodation to publish a statement indicating
that service will be refused because of sexual
orientation. Colo. Rev. Stat. § 24-34-601(2)(a).
The Communication Clause does not violate the
Appellants’ Free Speech rights. As the district court
correctly held, Colorado may prohibit speech that
promotes unlawful activity, including unlawful
discrimination. Aplts.’ App. at 3-577–78.
In
Pittsburgh Press Company v. Pittsburgh Commission
on Human Relations, the Supreme Court held that
publishing employment advertisements in “sexdesignated columns” was not protected by the First
Amendment. 413 U.S. 376, 378 (1973). The Court
The Dissent implies that our holding applies to “all artists.”
Dissent at 30 (emphasis in original). As should be clear, our
holding does not address how CADA might apply to noncommercial activity (such as commissioning a mural for some
charitable purpose).
6

34
reasoned that, because the underlying employment
practice was illegal sex discrimination, there was no
protected First Amendment interest. Id. at 389. In
contrast, in Bigelow v. Virginia, 421 U.S. 809 (1975),
the Supreme Court held that publishing
advertisements for abortion services was protected by
the First Amendment, so long as the underlying
services were themselves legal. In that case, the
Court held that, although the abortion services were
illegal if offered in Virginia, Virginia had no interest
in regulating advertisements for services offered in
New York, where the services were legal. Id. at 828.
Appellants appear to acknowledge that their
Accommodation Clause and Communication Clause
challenges go hand in hand, at least to the extent the
merits of those challenges are “intertwined.” Aplts.’
Reply at 6; see also Aplts.’ Br. at 53–57 (addressing
both clauses simultaneously as to strict scrutiny).
Having concluded that the First Amendment does
not protect Appellants’ proposed denial of services, we
also conclude that the First Amendment does not
protect the Proposed Statement.
Parts of the
Proposed Statement might not violate the
Accommodation Clause, such as those parts
expressing Appellants’ commitment to their clients or
Ms. Smith’s religious convictions. Yet, the Proposed
Statement also expresses an intent to deny service
based on sexual orientation—an activity that the
Accommodation Clause forbids and that the First
Amendment does not protect. Thus, the Proposed
Statement itself is also not protected and Appellants’
challenge to the Communication Clause fails. See
Pittsburgh Press, 413 U.S. at 389 (commercial
advertising is not protected where “the commercial

35
activity itself is illegal and the restriction on
advertising is incidental to a valid limitation on
economic activity”). 7
D.

Free Exercise
1. CADA is a Neutral Law of General
Applicability

“[L]aws incidentally burdening religion are
ordinarily not subject to strict scrutiny under the Free
Exercise Clause so long as they are neutral and
generally applicable.” Fulton, 141 S. Ct. at 1876
(citing Employment Div., Dep’t of Hum. Resources of
Or. v. Smith, 494 U.S. 872, 878–82 (1990)); see also
Church of the Lukumi Babalu Aye, Inc. v. City of
Hialeah, 508 U.S. 520, 531 (1993) (“[A] law that is
neutral and of general applicability need not be
justified by a compelling governmental interest even
if the law has the incidental effect of burdening a
particular religious practice.”).
a.

CADA is a Neutral Law

“Government fails to act neutrally when it
proceeds in a manner intolerant of religious beliefs or
restricts practices because of their religious nature.”
Fulton, 141 S. Ct. at 1877 (emphasis added); see also
Lukumi, 508 U.S. at 533 (“[I]f the object of a law is to
infringe upon or restrict practices because of their
We presume the Dissent agrees that, under Pittsburgh
Press and Bigelow, Appellants’ Free Speech challenge to the
Communication Clause must rise or fall with their challenge to
the Accommodation Clause. We recognize the Dissent’s
disagreement with our analysis of the Accommodation Clause,
and thus its implicit disagreement with our conclusion as to the
Communication Clause.
7

36
religious motivation, the law is not neutral[.]”)
(emphasis added). “Factors relevant to the
assessment of governmental neutrality include ‘the
historical background of the decision under challenge,
the specific series of events leading to the enactment
or official policy in question, and the legislative or
administrative history, including contemporaneous
statements made by members of the decisionmaking
body.’” Masterpiece Cakeshop, 138 S. Ct. at 1731
(quoting Lukumi, 508 U.S. at 540).
In Masterpiece Cakeshop, the Court held that
Colorado had enforced CADA against a baker (Jack
Phillips) without “the religious neutrality that the
Constitution requires.” 138 S. Ct. at 1724. The Court
relied, in part, on a Commissioner’s statement
describing the baker’s religious objection as “one of
the most despicable pieces of rhetoric that people can
use.” Id. at 1729. The Court explained that this
statement impermissibly disparaged Phillips’ religion
by “describing it as despicable, and also by
characterizing it as something merely rhetorical.” Id.
The Court instructed the Commission that it “was
obliged under the Free Exercise Clause to proceed in
a manner neutral toward and tolerant of Phillips’
religious beliefs.” Id. at 1731.
Appellants provide no evidence that Colorado will
ignore the Court’s instruction in Masterpiece
Cakeshop, and thus provide no evidence that Colorado
will enforce CADA in a non-neutral fashion.
Appellants rely on a comment from a public meeting
held a few days after the Court’s ruling in Masterpiece
Cakeshop. At the public meeting, a different
Commissioner voiced his “support” for the
Commissioner whose comments that were at issue in

37
Masterpiece
Cakeshop,
opining
that
the
Commissioner discussed in Masterpiece Cakeshop did
not say “anything wrong.” Aplts.’ App. at 3-609. The
single Commissioner’s statement at the public
meeting, however, does not indicate Colorado will
deviate from the Court’s instruction in Masterpiece
Cakeshop. In contrast to the single Commissioner’s
opinion, several others at the public meeting voiced
their agreement with the Court’s ruling, or their
commitment to follow that ruling. Id. at 3-606
(Director Elenis: “So in these cases going forward,
Commissioners and ALJs and others, including the
Staff at the Division, have to be careful how these
issues are framed so that it’s clear that full
consideration was given to sincerely—what is termed
as sincerely-held religious objections.”); id. 3-608
(Commissioner
Carol
Fabrizio:
“[Masterpiece
Cakeshop] was correctly decided from the outside, but
I also hope that anything that is taken out of here or
listened to or—that we’re open to being respectful of
everybody’s views.”). In short, Appellants’ preenforcement challenge is dissimilar to the postenforcement challenge in Masterpiece Cakeshop.
b. CADA is Generally Applicable
A law is not generally applicable “if it prohibits
religious conduct while permitting secular conduct
that undermines the government’s asserted interests
in a similar way.” Fulton, 141 S. Ct. at 1877.
“[W]hether two activities are comparable for purposes
of the Free Exercise Clause must be judged against
the asserted government interest that justifies the
regulation at issue.” Tandon v. Newsom, 141 S. Ct.
1294, 1296 (2021) (per curiam). “The principle that
government, in pursuit of legitimate interests, cannot

38
in a selective manner impose burdens only on conduct
motivated by religious belief is essential to the
protection of the rights guaranteed by the Free
Exercise Clause.” Lukumi, 508 U.S. at 543.
“Neutrality and general applicability are interrelated,
and . . . failure to satisfy one requirement is a likely
indication that the other has not been satisfied.” Id.
at 531.
A law is also not generally applicable “if it ‘invites’
the government to consider the particular reasons for
a person’s conduct by providing ‘a mechanism for
individualized exemptions.’” Fulton, 141 S. Ct. at
1877 (quoting Smith, 494 U.S. at 884) (alteration
omitted). “[W]here the State has in place a system of
individual exemptions, it may not refuse to extend
that system to cases of ‘religious hardship’ without
compelling reason.” Id. (quoting Smith, 494 U.S. at
884). In Smith, the Court explained that a “good
cause”
exemption
from
requirements
for
unemployment compensation benefits “created a
mechanism for individualized exemptions.” Smith,
494 U.S. at 884 (citing Bowen v. Roy, 476 U.S. 693,
707 (1986)); see also Sherbert v. Verner, 374 U.S. 398,
401 n.4 (1963). And more recently, in Fulton, the
Court explained that exemptions from contractual
obligations made available at the “sole discretion” of
a city commissioner trigger strict scrutiny. 141 S. Ct.
at 1878.
Appellants assert that CADA is not generally
applicable because Colorado enforces a “religiousspeakers policy,” under which religiously-motivated
objections are viewed with greater scrutiny than
secularly-motivated objections. See Aplts.’ Br. at 48.
For example, although Colorado admits that a

39
business is not required to design a website
proclaiming “God is Dead” if it would decline such a
design for any customer, see Colorado’s Br. at 42,
Appellants must design a website celebrating samesex marriage, even though it would decline such a
design for any customer.
In support of their claim of a religious-speakers
policy, Appellants also rely on the record in
Masterpiece Cakeshop. In that case, Phillips asserted
a disparity in treatment between his case and three
other cases related to a customer named William
Jack. In the Jack cases, bakers refused Jack’s
requests for cakes that “conveyed disapproval of
same-sex marriage, along with religious text.”
Masterpiece Cakeshop, 138 S. Ct. 1719 at 1730. The
Colorado Court of Appeals held that the three bakers
lawfully refused Jack service “because of the offensive
nature of the requested message.” Id. at 1731 (quoting
Craig v. Masterpiece Cakeshop, Inc., 370 P.3d 272, 282
n.8 (Colo. App. 2015)).
The Supreme Court held that this difference in
treatment was “[a]nother indication of hostility”
toward Phillips’ religious motivations. Id. at 1729.
Contrary to the Colorado Court of Appeals, the
Supreme Court held that the difference in treatment
between the Phillips and Jack cases could not be
based on “the government’s own assessment of
offensiveness.” Id. at 1731. According to the Court,
such reasoning “elevates one view of what is offensive
over another and itself sends a signal of official
disapproval of Phillips’ religious beliefs.” Id. The
Supreme Court declined to address, however,
“whether
the cases
should
ultimately
be
distinguished.” Id. at 1730. Rather, the Court’s

40
holding in Masterpiece Cakeshop was narrowly
limited to the discriminatory enforcement in that
particular case, and left open CADA’s future
enforcement against other objectors. Id. at 1732; see
also Fulton, 141 S. Ct. at 1930 (Gorsuch, J.,
concurring) (“[A]ll that victory [in Masterpiece
Cakeshop] assured Mr. Phillips was a new round of
litigation—with officials now presumably more
careful about admitting their motives.”).
In concurring opinions, Justices Kagan and
Gorsuch disagreed as to whether Colorado could
apply CADA in the Phillips case, but not in the Jack
cases. According to Justice Kagan, the bakers in the
Jack cases did not discriminate against Jack’s religion
because the bakers would have refused any
customer’s request for cakes denigrating gay people
and same-sex marriage. Masterpiece Cakeshop, 138 S.
Ct. at 1733 (Kagan, J., concurring). In Justice
Kagan’s view, “[t]he different outcomes in the Jack
cases and the Phillips case could thus have been
justified by a plain reading and neutral application of
Colorado law—untainted by any bias against a
religious belief.” Id. (Kagan, J., concurring).
According to Justice Gorsuch, however, the Jack cases
and the Phillips case “share[d] all legally salient
features.” Id. at 1735 (Gorsuch, J., concurring). In
Justice Gorsuch’s view, Colorado could apply CADA
in both cases, or in neither case, but “the one thing it
can’t do is apply a more generous legal test to secular
objections than religious ones.” Id. at 1737 (Gorsuch,
J., concurring); see also id. at 1739 (Gorsuch, J.,
concurring) (“Only by adjusting the dials just right—
fine-tuning the level of generality up or down for each
case based solely on the identity of the parties and the

41
substance of their views—can you engineer the
Commission’s outcome, handing a win to Mr. Jack’s
backers but delivering a loss to Mr. Phillips.”)
(emphasis in original).
Although a gerrymander similar to the one
identified by Justice Gorsuch may still exist,
Appellants have only shown a gerrymander favoring
LGBT consumers, as opposed to a gerrymander
disfavoring religious-speakers. Indeed, a “pro-LGBT”
gerrymander is likely inevitable given CADA’s
purpose and its content-based restrictions on speech.
See supra, III.C.1.a. Appellants provide no evidence
that Colorado permits secularly-motivated objections
to serving LGBT consumers. Similarly, Appellants
provide no evidence that Colorado enforces CADA
against religiously-motivated objections that do not
injure the dignitary or material interests of LGBT
consumers. In short, Appellants fail to show that
Colorado “permit[s] secular conduct that undermines
the government’s asserted interests in a similar way.”
Fulton, 141 S. Ct. at 1877 (emphasis added).
The Supreme Court’s recent cases addressing Free
Exercise challenges to COVID-19 restrictions are
instructive. In Tandon v. Newsom, the Court
explained “[c]omparability is concerned with the risks
various activities pose, not the reasons why people
gather.” 141 S. Ct. at 1296 (per curiam). Accordingly,
the Court held that California could not restrict athome religious exercise while permitting secular
activities that posed similar risks of COVID-19
transmission. Id. at 1297. The Court reached a
similar conclusion in Roman Catholic Diocese of
Brooklyn v. Cuomo, holding that New York could not
restrict access to houses of worship while permitting

42
access to secular facilities with similar safety records
regarding the spread of COVID-19. 141 S. Ct. 63, 66–
67 (2020) (per curiam). Here, however, Appellants
rely on comparators that injure LGBT consumers. For
example, in the Jack cases, non-enforcement was
consistent with Colorado’s pro-LGBT gerrymander.
Because Appellants provide no examples where
Colorado
permitted
“secular-speakers”
to
discriminate against LGBT consumers, Appellants
fail to show that Colorado disfavors similarly-situated
“religious-speakers.” 8
Colorado’s recognition of message-based refusals
also does not give rise to a system of “individualized
exemptions.” See Aplts.’ Br. at 49. Message-based
refusals are not an “exemption” from CADA’s
requirements; they are a defense. A public
accommodation only violates CADA when it
The Dissent is correct that Colorado “has the burden to
establish that the challenged law satisfies strict scrutiny.”
Dissent at 40 n.15 (quoting Tandon, 141 S. Ct. at 1296 (per
curiam)). But that burden is irrelevant here because strict
scrutiny does not apply to Appellants’ Free Exercise claims. And
it is Appellants’ burden to show, at the very least, a triable issue
of material fact that CADA is not neutral
or generallyapplicable. Compare Axson-Flynn v. Johnson, 356 F.3d 1277,
1299 (10th Cir. 2004) (“Because Axson-Flynn has raised a
genuine issue of material fact as to whether Defendants
maintained a discretionary system of case-by-case exemptions
from curricular requirements, we hold that summary judgment
on her free exercise ‘individualized exemption’ claim was
improper.”), with Grace United Methodist Church v. City of
Cheyenne, 451 F.3d 643, 655 (10th Cir. 2006) (“[I]nconsistent
with the requirements of Axson-Flynn, Grace United has not
pointed to any evidence to support its conclusory allegation that
the City specifically targeted religious groups or the Methodist
denomination in its enforcement of the ordinance in this case.”).
8

43
discriminates “because of” a consumer’s membership
in a protected class. Colo. Rev. Stat. § 24-34-601(2)(a).
Ostensibly, message-based refusals are unrelated to
class-status and fail to satisfy CADA’s causation
standard. Because message-based refusals do not
violate CADA as an initial matter, there is nothing to
“exempt” from the statute. See Exempt, Black’s Law
Dictionary (11th ed. 2019) (“Free or released from a
duty or liability to which others are held.”).
Message-based
refusals
are
also
not
“individualized.” “[A] system of individualized
exemptions is one that gives rise to the application of
a subjective test.” Axson-Flynn, 356 F.3d at 1297
(internal quotation omitted). Conversely, an
exemption is not “individualized” simply because it
“contain[s] express exceptions for objectively defined
categories of persons.” Id. at 1298. As we explained in
Axson-Flynn, “[w]hile of course it takes some degree
of individualized inquiry to determine whether a
person is eligible for even a strictly defined
exemption, that kind of limited yes-or-no inquiry is
qualitatively different from the kind of case-by-case
system envisioned by the Smith Court in its
discussion of Sherbert and related cases.” Id.
We are satisfied that message-based refusals may
be objectively defined and are not the type of
subjective test that triggers the individualized
exemption exception. We need not decide how CADA’s
causation standard should apply to Appellants’
message-based refusal. See supra, III.B.1. We also
reiterate that, on a more developed record, Appellants
might show that Colorado enforces that standard in a
way that discriminates against religion, violating the
Free Exercise Clause. Yet, whatever issues may be

44
presented in a future case, it is clear to us that
CADA’s causation standard itself is qualitatively
different from the broad, discretionary analyses
presented in other individualized exemption cases.
See, e.g., Fulton, 141 S. Ct. at 1878 (exemptions
granted in city official’s “sole discretion”); Sherbert,
374 U.S. at 401 n.4 (exemptions granted for “good
cause”); Axson-Flynn, 356 F.3d at 1299 (exemptions
granted through “pattern of ad hoc discretionary
decisions”).
The Dissent’s discussion of the individualized
exemption exception conflates an “individualized
exemption” with “individualized adjudication.” For
example,
the
Dissent
concludes
that
the
individualized exemption exception should apply
because “the entire CADA enforcement mechanism is
structured to make case-by-case determinations.”
Dissent at 36; see also id. at 43 (“By demonstrating
that CADA sets up a case-by-case system for
determining exceptions, Ms. Smith has shown
CADA’s application here must be reviewed with strict
scrutiny with regard to the free exercise claims.”).
Accordingly, CADA does not grant “individualized
exemptions” simply because causation is determined
by the specific facts of each case. Were we to conclude
otherwise, a wide range of criminal statutes would
also become subject to Free Exercise challenges
because courts adjudicate a defendant’s guilt through
“case-by-case determinations.”
Although we hold that the “religious-speakers
policy” identified by Appellants is not an “exemption,”
CADA provides for two exemptions that warrant
closer attention. First, CADA exempts places that are
“principally used for religious purposes” from its

45
definition of public accommodations. Colo. Rev. Stat.
24-34- 601(1). This exemption does not trigger strict
scrutiny. To the extent a “religious- purpose”
exemption is individualized, the exemption expressly
favors religious exercise over places used for secular
purposes. 9
Second, CADA exempts sex-based discrimination
“if such restriction has a bona fide relationship to the
goods, services, facilities, privileges, advantages, or
accommodations
of
such
place
of
public
accommodation.” Colo. Rev. Stat. § 24-34- 601(3). On
the pre-enforcement record before us, Appellants
have not shown the “bona fide relationship”
exemption should trigger strict scrutiny. Like CADA’s
causation standard, a fact-finder may objectively
determine whether a public accommodation’s
discriminatory practice is “related” to the public
accommodation’s goods or services. Whether such a
relationship is “bona fide” seems closer to the type of
discretionary standard subject to the individualized
exemption exception. The statute is silent as to when
a relationship is “bona fide,” and the parties do not
define that term in their briefing. Despite that
Indeed, an exemption for places “principally used for
religious purposes” may, in at least some instances, be required
by the First Amendment. Hosanna-Tabor Evangelical Lutheran
Church and School v. EEOC, 565 U.S. 171, 190 (2012)
(recognizing a “ministerial exception” to generally applicable
employment laws). As Justice Alito noted in Fulton, the
ministerial exemption is in “tension” with the Smith standard.
Fulton, 141 S. Ct. 1916 n.77 (Alito, J., concurring). We need not
resolve that tension here. We only note that, under the Supreme
Court’s precedent, CADA remains generally applicable despite
exempting some religious exercise.
9

46
ambiguity, however, the term is facially unlike the
“entirely discretionary” exemption addressed in
Fulton. 141 S. Ct. at 1878. Thus, we conclude that the
mere existence of a “bona fide relationship” exemption
does not, on its own, trigger strict scrutiny.
We pause because Colorado’s application of the
“bona fide relationship” exemption may trigger strict
scrutiny on a post-enforcement record. For example,
strict scrutiny would apply if Colorado “refuse[d] to
accept religious reasons for [a bona fide relationship]
on equal footing with secular reasons for [a bona fide
relationship].” Axson-Flynn, 356 F.3d at 1298. And, if
it did so, Colorado must offer a “compelling reason
why it has a particular interest in denying an
exception to [Appellants] while making [it] available
to others.” Fulton, 141 S. Ct. at 1882 (emphasis
added). Thus, a future case may present the closer
questions of whether the “bona fide relationship”
exemption should apply here, or, assuming Colorado
denies such an exemption, whether such denial
violates the Free Exercise Clause. On this preenforcement record, however, Appellants have not
shown the exemption will be applied in an
impermissible manner.
2. Appellants Cannot Assert a Hybrid Rights
Claim
We apply heightened scrutiny to a hybrid-rights
claim where a plaintiff brings
a “colorable”
companion claim, i.e., one with a “fair probability or
likelihood, but not a certitude, of success on the
merits.” Axson-Flynn, 356 F.3d at 1297. Because
Appellants’ other constitutional claims either fail or
were not raised on appeal, Appellants have no

47
companion claim. Thus, there is no reason to apply
heightened scrutiny under a hybrid-rights theory. In
any event, CADA would satisfy heightened scrutiny
for the same reasons that it satisfies strict scrutiny,
as explained above.

E. Overbreadth and Vagueness
The Communication Clause not only prohibits
statements indicating that goods or services “will be
refused, withheld from, or denied an individual,” but
also prohibits statements indicating “that an
individual’s patronage or presence at a place of public
accommodation
is
unwelcome,
objectionable,
unacceptable, or undesirable because of [protected
status].” Colo. Rev. Stat. § 24-34-601(2)(a). Appellants
challenge this latter restriction, which they term the
“Unwelcome Provision,” as unconstitutionally
overbroad and vague. See Aplts.’ Br. at 57.

1. The

Communication Clause
Unconstitutionally Overbroad

Is

Not

The Unwelcome Provision does not render the
Communication Clause unconstitutionally overbroad,
because the Communication Clause’s “application to
protected speech [is not] substantial . . . relative to the
scope of the law’s plainly legitimate applications.”
Virginia v. Hicks, 539 U.S. 113, 119–20 (2003) (citing
Broadrick v. Oklahoma, 413 U.S. 601, 613, 615
(1973)). Even assuming the Unwelcome Provision,
when read alone, unconstitutionally restricts speech,
the Communication Clause, when read as a whole, is
primarily focused on access to goods and services.
Thus, in a case like the one here, “whatever
overbreadth may exist should be cured through caseby-case analysis of the fact situations to which its

48
sanctions, assertedly, may not be applied.” Broadrick,
413 U.S. at 615–16. We need not apply the
Unwelcome Provision in this case because Appellants’
Proposed Statement violates the Communication
Clause’s prohibition on statements indicating refusal
of services. See Aplts.’ App. at 2-364 (Proposed
Statement that Appellants “will not be able to create
websites for same-sex marriages or any other
marriage that is not between one man and one
woman”).
The Dissent concludes that the Unwelcome
Provision is overbroad because it would punish
numerous forms of protected speech. In support, the
Dissent identifies several examples where a public
accommodation might violate the Unwelcome
Provision without violating the Communication
Clause’s separate prohibition on statements
indicating refusal of services. See Dissent at 48–49. 10
We are unconvinced that the Dissent’s examples are
“substantial . . . relative to the scope of the law’s
plainly legitimate applications.” Hicks, 539 U.S. at
119–20.
Aside from this case and Masterpiece
Cakeshop, amici document numerous other cases
where public accommodations communicated, either
As a preliminary matter, we question the Dissent’s
conclusion that those examples would, in fact, be “covered by . .
. the Unwelcome Provision.” Dissent at 50. Taking one of the
Dissent’s examples, it is unclear to us whether a store owner’s
sign stating “We honor God and His commandments here”
necessarily “indicates” that an atheist customer is unwelcome.
See id. at 48. Such a sign may cause the customer to subjectively
feel unwelcome, even if the business does not intend any
offensiveness. “Indicates” may have, under CADA, a narrower
definition than the Dissent implies.
10

49
directly or indirectly, that a consumer’s presence was
unwelcome and that they would be refused access.
See, e.g., Br. of Law Professors from the States of
Colo., et al., as amicus curiae at 22–24 (describing
examples of discrimination against LGBT people in
Colorado); Br. of Religious and Civil Rights
Organizations as amicus curiae at 24–26 (describing
examples of discrimination against religious
minorities). To be clear, we express no opinion as to
whether the Unwelcome Provision might violate the
First Amendment in other contexts. We merely
conclude that those violations are better addressed on
their own facts, and do not warrant the “strong
medicine” of the overbreadth doctrine. Broadrick, 413
U.S. at 613.
2. The Communication Clause
Unconstitutionally Vague

Is

Not

Appellants’ vagueness challenge also fails because
their Proposed Statement indicates a refusal of
services. Appellants rely on Johnson v. United States,
576 U.S. 591 (2015), where the Supreme Court struck
the Residual Clause of the Armed Career Criminals
Act as void for vagueness. The Supreme Court held
that the Residual Clause was unconstitutionally
vague, even if “some conduct” might clearly be
proscribed. Id. at 602. In doing so, the Court described
the standard for determining whether a statute is, as
a matter of law, unconstitutionally vague—not the
standard for determining when a party may bring a
vagueness challenge. Accordingly, the district court in
this case correctly relied on Expressions Hair Design
v. Schneiderman, a case decided after Johnson, in
which the Supreme Court reaffirmed that “a plaintiff
whose speech is clearly proscribed cannot raise a

50
successful vagueness claim.” 137 S. Ct. 1144, 1151–
52 (2017) (quoting Holder v. Humanitarian Law
Project, 561 U.S. 1, 20 (2010)); see also Humanitarian
Law Project, 561 U.S. at 21 (“Of course, the scope of
the material-support statute may not be clear in every
application. But the dispositive point here is that the
statutory terms are clear in their application to
plaintiffs’ proposed conduct, which means that
plaintiffs’ vagueness challenge must fail.”). Because
the Proposed Statement is clearly proscribed by the
Communication Clause’s prohibition on statements
indicating refusal of services, Appellants cannot
separately challenge the Unwelcome Provision as
unconstitutionally vague. 11
IV.

Conclusion

We agree with the Dissent that “the protection of
minority viewpoints is not only essential to protecting
speech and self-governance but also a good in and of
itself.” Dissent at 12. Yet, we must also consider the
grave harms caused when public accommodations
discriminate on the basis of race, religion, sex, or
sexual orientation. Combatting such discrimination
is, like individual autonomy, “essential” to our
democratic ideals. And we agree with the Dissent
that a diversity of faiths and religious exercise,
The Dissent’s vagueness analysis suffers the same defects as
its overbreadth analysis. What makes a consumer “feel”
unwelcome may be unduly vague. Yet, CADA only proscribes
communications that “indicate” a consumer is unwelcome.
Whether a communication indicates as such may entail a more
objective standard than the Dissent implies. And, in any event,
the Dissent never explains why Appellants may bring a
vagueness claim when their Proposed Statement clearly
indicates a refusal of services.
11

51
including Appellants’, “enriches” our society. Dissent
at 44. Yet, a faith that enriches society in one way
might also damage society in other, particularly when
that faith would exclude others from unique goods or
services. In short, Appellants’ Free Speech and Free
Exercise rights are, of course compelling. But so too is
Colorado’s interest in protecting its citizens from the
harms of discrimination. And Colorado cannot defend
that interest while also excepting Appellants from
CADA.
For these reasons, we AFFIRM the district court’s
grant of summary judgment in favor of Colorado.

52
19-1413, 303 Creative v. Elenis , Tymkovich,
Chief Judge, dissenting.
If liberty means anything at all, it means the right
to tell people what they do not want to hear.
– George Orwell
No one denies Lorie Smith’s sincere religious
beliefs, good faith, and her willingness to serve clients
regardless of race, creed, ethnicity, or sexual
orientation. But what she will not do is compromise
her beliefs and produce a message at odds with them.
The Constitution neither forces Ms. Smith to
compromise her beliefs nor condones the government
doing so. In fact, this case illustrates exactly why we
have a First Amendment. Properly applied, the
Constitution protects Ms. Smith from the government
telling her what to say or do.
But the majority takes the remarkable—and
novel—stance that the government may force Ms.
Smith to produce messages that violate her
conscience. In doing so, the majority concludes not
only that Colorado has a compelling interest in forcing
Ms. Smith to speak a government-approved message
against her religious beliefs, but also that its publicaccommodation law is the least restrictive means of
accomplishing this goal. No case has ever gone so far.
Though I am loathe to reference Orwell, the majority’s
opinion
endorses
substantial
government
interference in matters of speech, religion, and
conscience. Indeed, this case represents another
chapter in the growing disconnect between the
Constitution’s endorsement of pluralism of belief on
the one hand and anti- discrimination laws’
restrictions of religious-based speech in the

53
marketplace on the other. It seems we have moved
from “live and let live” to “you can’t say that.” While
everyone supports robust and vigorously enforced
anti-discrimination laws, those laws need not and
should not force a citizen to make a Hobson’s choice
over matters of conscience. Colorado is rightfully
interested in protecting certain classes of persons
from arbitrary and discriminatory treatment. But
what Colorado cannot do is turn the tables on Ms.
Smith and single out her speech and religious beliefs
for discriminatory treatment under the aegis of antidiscrimination laws.
The Constitution is a shield against CADA’s
discriminatory treatment of Ms. Smith’s sincerely
held religious beliefs. The First Amendment prohibits
states from “abridging the freedom of speech” or the
“free exercise” of religion. U.S. Const. amend. I. And
the freedom to speak necessarily guarantees the right
to remain silent. So the majority ushers forth a brave
new world when it acknowledges that CADA compels
both speech and silence—yet finds this intrusion
constitutionally permissible. CADA forces Ms. Smith
to violate her faith on pain of sanction both by
prohibiting religious-based business practices and by
penalizing her if she does speak out on these matters
in
ways
Colorado
finds
“unwelcome”
or
“undesirable.” 1

The Colorado Anti-Discrimination Act provides that, for
places of public accommodation:
1

It is a discriminatory practice and unlawful for
a person, directly or indirectly, to refuse,
withhold from, or deny to an individual or a
group, because of disability, race, creed, color,

54
I agree with the majority that Ms. Smith has
standing to bring her claims and that the case is ripe.
But because I cannot agree that Colorado may force
Ms. Smith to create messages or stay silent contrary
to her beliefs, I respectfully dissent.

I.

Free Speech

It is important to understand from the outset that
Ms. Smith and Colorado agree that she will serve
anyone, regardless of protected class status. In the
district court, both she and Colorado stipulated that:
(1) Ms. Smith is “willing to work with all people
sex, sexual orientation, gender identity, gender
expression, marital status, national origin, or
ancestry, the full and equal enjoyment of the
goods,
services,
facilities,
privileges,
advantages, or accommodations of a place of
public accommodation or, directly or indirectly,
to publish, circulate, issue, display, post, or
mail any written, electronic, or printed
communication, notice, or advertisement that
indicates that the full and equal enjoyment of
the goods, services, facilities, privileges,
advantages, or accommodations of a place of
public accommodation will be refused, withheld
from, or denied an individual or that an
individual’s patronage or presence at a place of
public
accommodation
is
unwelcome,
objectionable, unacceptable, or undesirable
because of disability, race, creed, color, sex,
sexual orientation, gender identity, gender
expression, marital status, national origin, or
ancestry.
Colo. Rev. Stat. § 24-34-601, as amended by H.B. 21-1108
(enacted May 20, 2021). CADA was amended in May 2021 to add
“gender identity” and “gender expression” as protected class
characteristics.

55
regardless of classifications such as race, creed,
sexual orientation and gender”; and Ms. Smith does
“not object to and will gladly create custom graphics
and websites for gay, lesbian, or bisexual clients or for
organizations run by gay, lesbian, or bisexual persons
so long as the custom graphics and websites do not
violate [her] religious beliefs, as is true for all
customers.” Aplt. App. 2-322. Ms. Smith and Colorado
also agree that she “will decline any request to design,
create, or promote content that: contradicts biblical
truth; demeans or disparages others; promotes sexual
immorality; supports the destruction of unborn
children; incites violence; or promotes any conception
of marriage other than marriage between one man
and one woman.” Id. at 2-323. And counsel for Ms.
Smith confirmed at oral argument that she would
represent clients regardless of sexual orientation in
creating websites that celebrate opposite-sex
weddings.
In short, Colorado appears to agree that Ms. Smith
does not distinguish between customers based on
protected-class status and thus advances the aims of
CADA.
But when any customer asks Ms. Smith to create
expressive content that violates her sincerely held
beliefs, she will decline the request. 2 Colorado claims
At oral argument, the following hypothetical was posed of
Ms. Smith’s counsel: imagine a heterosexual wedding planner
approached Ms. Smith, asking her to design five mock-up
wedding websites for the wedding planner to attract potential
customers—four for opposite-sex weddings and one for a samesex wedding. Ms. Smith’s counsel confirmed that she would not
make a same-sex wedding website for a heterosexual client.
2

56
to endorse this type of message-based refusal,
asserting that “the Commission does not interpret
[CADA] to require any business owner, regardless of
religious beliefs, to produce a message it would
decline to produce for any customer.” Appellee Br. at
62. Yet Colorado and the majority argue that Ms.
Smith must do exactly this: create expressive content
celebrating same-sex weddings as long as she will
create expressive content celebrating opposite-sex
weddings. This is paradigmatic compelled speech.

A. C o mpelled Speec h Pro visio ns Are Subjec t
to Stric t Sc rutiny
Government-compelled speech is antithetical to
the First Amendment. Forcing an individual “to be an
instrument for fostering public adherence to an
ideological point of view he finds unacceptable . . . .
‘invades the sphere of intellect and spirit which it is
the purpose of the First Amendment to our
Constitution to reserve from all official control.’”
Wooley v. Maynard, 430 U.S. 705, 715 (1977) (quoting
W. Va. State Bd. of Educ. v. Barnette, 319 U.S. 624,
642 (1943)). Thus, the government cannot—for
example—coerce affirmations of belief, compel
unwanted expression, or force one speaker to host the
message of another as a public accommodation. See
Barnette, 319 U.S. at 633–34; Wooley, 430 U.S. at 714;
Hurley v. Irish-Am. Gay, Lesbian & Bisexual Grp. of
Bos., 515 U.S. 557, 573 (1995).
The compelled speech doctrine was first
articulated in 1943 in Justice Jackson’s opinion in
Barnette. In that case, Jehovah’s Witness parents and
schoolchildren sought to enjoin the enforcement of
compulsory flag-salute laws, as the required salute

57
and accompanying pledge of allegiance violated their
religious beliefs. Justice Jackson concluded that the
First Amendment protected the schoolchildren’s right
to free speech, noting that “[t]o sustain the
compulsory flag salute we are required to say that a
Bill of Rights which guards the individual’s right to
speak his own mind, left it open to public authorities
to compel him to utter what is not in his mind.”
Barnette, 319 U.S. at 634. Written against the
backdrop of World War II, the opinion cautioned
against the “[c]ompulsory unification of opinion” of
the like sought by the “fast failing efforts of our
present totalitarian enemies.” Id. at 641. “[T]he First
Amendment to our Constitution was designed to
avoid these ends by avoiding these beginnings”—
namely, by preventing the government from coercing
speech in the first instance. Id.
Over three decades later, the Court again
confirmed that the government cannot compel an
unwilling individual to speak or even passively
display the government’s ideological message, no
matter its popularity. In 1977, the Wooley Court
struck down New Hampshire regulations requiring
the display of the state’s “Live Free or Die” motto on
license plates. Wooley, 430 U.S. at 714. The motto’s
wide acceptance was irrelevant because the “First
Amendment protects the right of individuals to hold a
point of view different from the majority and to refuse
to foster . . . an idea they find morally objectionable.”
Id. at 717. Wooley also expanded Barnette’s logic: just
as the government cannot coerce affirmations of
belief, it also cannot require an individual to be a
“courier for [the State’s] message,” even when that

58
message does not otherwise interfere with the
individual’s own speech. Id.
Nor can the government require a speaker to be a
courier for another citizen’s message. In Hurley, the
Court unanimously held as unconstitutional the
application
of
the
Massachusetts
publicaccommodations statute to the organizers of Boston’s
St. Patrick’s Day Parade. Hurley, 515 U.S. at 572–73.
Forcing the organizers of the parade—which itself is
protected expression—to allow the participation of
the Irish-American Gay, Lesbian & Bisexual Group
“had the effect of declaring the sponsors’ speech itself
to be the public accommodation.” Id. at 573. “[T]his
use of the State’s power violates the fundamental rule
of protection under the First Amendment, that a
speaker has the autonomy to choose the content of his
own message.” Id. Organizing the parade and
selecting participants was expressive, so applying the
public-accommodations law to force the organizers to
include unwanted speech was an impermissible
intrusion on the freedom to create that expression.
See id. at 576 (“[W]hen dissemination of a view
contrary to one’s own is forced upon a speaker
intimately connected with the communication
advanced, the speaker’s right to autonomy over the
message is compromised.”). Indeed, “[w]hile the law is
free to promote all sorts of conduct in place of harmful
behavior, it is not free to interfere with speech for no
better reason than promoting an approved message or
discouraging a disfavored one, however enlightened
either purpose may strike the government.” Hurley,
515 U.S. at 579.
And the autonomy to speak necessarily includes
the freedom to remain silent. Because “‘all speech

59
inherently involves choices of what to say and what to
leave unsaid,’ . . . one important manifestation of the
principle of free speech is that one who chooses to
speak may also decide ‘what not to say.’” Id. at 573
(quoting Pac. Gas & Elec. Co. v. Pub. Utilities Comm’n
of Cal., 475 U.S. 1, 11, 19 (1986)) (emphasis in
original). The Supreme Court has “held time and
again that freedom of speech includes both the right
to speak freely and the right to refrain from speaking
at all.” Janus v. Am. Fed’n of State, Cty., & Mun.
Employees, Council 31, 138 S. Ct. 2448, 2463 (2018)
(internal quotation marks omitted). As the Hurley
Court held, “the choice of a speaker not to propound a
particular point of view . . . is presumed to lie beyond
the government’s power to control.” Hurley, 515 U.S.
at 575. The rule that a “speaker has the right to tailor
. . . speech[] applies not only to expressions of value,
opinion, or endorsement, but equally to statements of
fact the speaker would rather avoid.” Id. at 573; see
also Masterpiece Cakeshop, Ltd. v. Colo. Civil Rights
Comm’n, 138 S. Ct. 1719, 1745 (2018) (Gorsuch, J.,
concurring) (“Because the government cannot compel
speech, it also cannot ‘require speakers to affirm in
one breath that which they deny in the next.’”
(quoting Pac. Gas & Elec. Co., 475 U.S. at 16)).
Key to the Hurley decision was the expressive
nature of a parade. This crucial point distinguishes it
from the Court’s decision compelling college campuses
to allow military recruiters in Rumsfeld v. Forum for
Academic & Institutional Rights, Inc., 547 U.S. 47, 61
(2006). The Solomon Amendment, challenged in that
case, required law schools to afford military recruiters
access to campus facilities for interviews and
promotional events, including access to school

60
scheduling emails and announcements. Id. at 60. But
the law schools were already providing these services
to other speakers, and the notification emails and
posted notices were not considered the law schools’
expressive speech. Id. at 61–63. The law schools’
actions in sending out such notices were not “affected
by the speech it was forced to accommodate” because
the emails did not constitute expressive conduct. Id.
at 63–64; see also id. at 64 (“Unlike a parade
organizer’s choice of parade contingents, a law
school’s decision to allow recruiters on campus is not
inherently expressive.”). This is why, in Hurley, the
Massachusetts public- accommodation law had “been
applied in a peculiar way”: it had made expressive
speech the public accommodation and thereby
changed its message. Hurley, 515 U.S. at 572.
Nothing about the access afforded by the Solomon
Amendment, in contrast, compromised the law
schools’ expressive beliefs.
In more recent cases, the Supreme Court has
confirmed the First Amendment’s antipathy toward
government-compelled speech. The government may
no more “prohibit the dissemination of ideas that it
disfavors” than it can “compel the endorsement of
ideas that it approves.” Knox v. Serv. Emps. Int’l
Union, Local 1000, 567 U.S. 298, 309 (2012). A state
cannot compel pregnancy crisis centers—many of
which are pro-life—to inform patients about the
availability of abortions because it “alter[s] the
content of their speech.” Nat’l Inst. of Family & Life
Advocates v. Becerra (NIFLA), 138 S. Ct. 2361, 2371
(2018) (quoting Riley v. Nat’l Fed’n of the Blind of
N.C., Inc., 487 U.S. 781, 795 (1988)) (alterations
incorporated); see also NIFLA, 138 S. Ct. at 2379

61
(Kennedy, J., concurring) (“This law is a paradigmatic
example of the serious threat presented when
government seeks to impose its own message in the
place of individual speech, thought, and expression.”).
Nor can a state force individuals to pay dues to
subsidize a private organization’s speech. Janus, 138
S. Ct. at 2464. And—until now—our own precedent
has similarly taken a deeply skeptical approach to
compelled speech. See Axson-Flynn v. Johnson, 356
F.3d 1277, 1283 (10th Cir. 2004) (finding a genuine
dispute of material fact as to whether university’s
compulsion of theater student’s speech was
pretextual); Cressman v. Thompson, 798 F.3d 938,
951 (10th Cir. 2015) (discussing the long prohibition
on compelled speech); Phelan v. Laramie Cty. Cmty.
Coll. Bd. of Trustees, 235 F.3d 1243, 1247 (10th Cir.
2000) (noting that, in government-speech contexts,
the “crucial question is whether, in speaking, the
government is compelling others to espouse or to
suppress certain ideas and beliefs”); Semple v.
Griswold, 934 F.3d 1134, 1143 (10th Cir. 2019)
(concluding that a Colorado state amendment raising
standards for citizen ballot initiatives did not compel
speech by requiring interactions with voters in all
state senate districts).
Accordingly, compelled speech is deeply suspect in
our jurisprudence—and rightly so, given the unique
harms it presents. For one, the ability to choose what
to say or not to say is central to a free and selfgoverning polity. As Justice Alito wrote in Janus:
When speech is compelled, . . .
additional damage is done. In that
situation, individuals are coerced into
betraying their convictions. Forcing

62
free and independent individuals to
endorse ideas they find objectionable is
always demeaning, and for this reason,
. . . a law commanding “involuntary
affirmation” of objected-to beliefs
would require “even more immediate
and urgent grounds” than a law
demanding silence.
Id. (quoting Barnette, 319 U.S. at 634). The
“[c]ompulsory unification of opinion” cautioned by
Justice Jackson in Barnette is not only a social harm
but a personal one. 319 U.S. at 641. The choice of
what to say has value, regardless of what is said or
not said; narrowing the field of permissible
expression diminishes autonomy and free will.
Moreover, the government’s ability to compel
speech and silence would make hollow the promise of
other First Amendment freedoms. Freedom of
association means little without the ability to express
the bonds of connection, see Boy Scouts of Am. v. Dale,
530 U.S. 640, 655–56 (2000), and the freedom to
petition for redress of grievances is valueless unless
one is protected from retribution for that speech. The
freedom of the press is essentially coextensive with—
and reliant on—the freedom of speech. See, e.g.,
Branzburg v. Hayes, 408 U.S. 665, 708 (1972). And
the freedom to exercise one’s religion necessitates the
ability to speak, engage in expressive conduct, and
conscientiously refuse to speak, in order to have
meaningful protection at all. See, e.g., NIFLA, 138 S.
Ct. at 2379 (“Freedom of speech secures freedom of
thought and belief.”) (Kennedy, J., concurring).

63
It is axiomatic that freedom of speech properly
keeps the power of the government in check and
preserves democratic self-government. See, e.g.,
Thornhill v. State of Alabama, 310 U.S. 88, 95 (1940)
(“The safeguarding of these rights to the ends that
men may speak as they think on matters vital to
them and that falsehoods may be exposed through
the processes of education and discussion is essential
to free government.”). This is why, of course, electoral
speech is essential to a free and functioning republic.
Citizens United v. Fed. Election Comm’n, 558 U.S.
310, 339 (2010) (“Speech is an essential mechanism
of democracy, for it is the means to hold officials
accountable to the people.”). Stifling minority speech
is the prototypical “slippery slope” toward
authoritarianism, recognized in the first of the
compelled speech cases: “As first and moderate
methods to attain unity have failed, those bent on its
accomplishment must resort to an ever-increasing
severity.” Barnette, 319 U.S. at 640. To paraphrase
Orwell, liberty must mean the right to tell others—
especially the government—what it does not want to
hear.
Furthermore, the protection of minority
viewpoints is not only essential to protecting speech
and self-governance but also a good in and of itself.
See, e.g., Wooley, 430 U.S. at 715 (“The First
Amendment protects the right of individuals to hold
a point of view different from the majority and to
refuse to foster, in the way New Hampshire
commands, an idea they find morally objectionable.”);
Texas v. Johnson, 491 U.S. 397, 414 (1989) (“If there
is a bedrock principle underlying the First
Amendment, it is that the government may not

64
prohibit the expression of an idea simply because
society finds the idea itself offensive or
disagreeable.”). Indeed, the “point of all speech
protection, . . . is to shield just those choices of content
that in someone’s eyes are misguided, or even
hurtful.” Hurley, 515 U.S. at 574. The lack of
minority viewpoints would impoverish the richness of
conversation and impede the search for truth
contemplated by the First Amendment. See, e.g.,
Thornhill, 310 U.S. at 95 (“Those who won our
independence had confidence in the power of free and
fearless reasoning and communication of ideas to
discover and spread political and economic truth.”).
Because of its existential threat to the most sacred
freedoms, we are tasked with reviewing instances of
compelled expressive speech with the utmost
skepticism. The majority’s endorsement of compelled
speech directed at Ms. Smith turns away from these
foundational principles.

B . CADA Compels Expressive Speec h
The Supreme Court’s repeated, emphatic
disapprobation of compelled expressive speech leaves
little room for other conclusions. So it is all the more
troubling when, in a case where the parties have
stipulated that Ms. Smith’s work is expressive
speech— “[the] custom wedding websites will be
expressive in nature”—the majority decides that its
compulsion is constitutional. 3
Ms. Smith and Colorado stipulated that her “custom
wedding websites will be expressive in nature, using text,
graphics, and in some cases videos to celebrate and promote the
couple’s wedding and unique love story.” Aplt. App. at 2-325. The
parties also agree that “[a]ll of these expressive elements will be
3

65
Creating custom wedding websites is not merely
conduct, or even expressive conduct. Ms. Smith’s
wedding websites as a whole—and the “text,
graphics, and . . . videos” that comprise them—are
pure speech. See Kaplan v. California, 413 U.S. 115,
119–20 (1973) (pure speech includes the printed
word, oral utterances, pictures, films, paintings,
drawings, and engravings); Brown v. Ent. Merchants
Ass’n, 564 U.S. 786, 790 (2011) (holding that books,
plays, movies, and video games all communicate
ideas, which “suffices to confer First Amendment
protection”); Cressman, 798 F.3d at 953 (noting that
“an artist’s sale of his own original work is pure
speech”). This is because the websites are greater
than the sum of their parts: each custom website
conveys Ms. Smith’s message or interpretation of
celebration of the couple’s union. See Cressman, 798
F.3d at 952–53 (emphasizing that the “animating
principle behind pure-speech protection” is
“safeguarding self-expression”). The parties agree on
this point, stipulating that “[b]y creating wedding
websites, Ms. Smith and 303 Creative will
collaborate with prospective brides and grooms in
order to use their unique stories as source material
to express Ms. Smith’s and 303 Creative’s message
celebrating and promoting God’s design for marriage
as the lifelong union of one man and one woman.”
Aplt. App. at 2-325.

customized and tailored to the individual couple and their
unique love story.” Id. And the parties stipulate that “[v]iewers
of the wedding websites will know that the websites are
Plaintiffs’ original artwork because all of the wedding websites
will say ‘Designed by 303Creative.com.’” Id.

66
The fact that Ms. Smith sells her custom website
designs does not reduce their value as speech. “It is
well settled that a speaker’s rights are not lost merely
because compensation is received; a speaker is no less
a speaker because he or she is paid to speak.” Riley,
487 U.S. at 801. The creative confluence of the text
and graphics in these original, individualized
websites produce expression—which deserves the
highest protection under the First Amendment. 4
If anything, this is an easier case than those
involving wedding cakes, see Masterpiece, 138 S. Ct.
at 1723, wedding photographs, see Chelsey Nelson
Photography LLC v. Louisville/Jefferson Cty. Metro
Gov’t, No. 3:19-CV-851-JRW, 2020 WL 4745771, at
*10 (W.D. Ky. Aug. 14, 2020), Updegrove v. Herring,
Ms. Smith’s custom websites are not commercial speech— or
even expressive commercial speech. The Supreme Court has
recognized that while advertising, for example, is purely
commercial speech, see Zauderer v. Office of Disciplinary
Counsel of Supreme Court of Ohio, 471 U.S. 626, 637 (1985),
expressive art—including art created in exchange for money—is
afforded First Amendment protection. See, e.g., Se. Promotions,
Ltd. v. Conrad, 420 U.S. 546, 557–58 (1975) (theater production);
Hurley, 515 U.S. at 569 (paintings, music, poetry, expressive
parades); Kaplan, 413 U.S. at 119–20 (pure speech includes the
printed word, oral utterances, pictures, films, paintings,
drawings, and engravings). Jackson Pollock sold his paintings,
Leonard Bernstein profited from his compositions, and Lewis
Carroll published his works to sell—but their creations are
“unquestionably shielded.” Hurley, 515 U.S. at 569. Indeed, to
hold that pure speech for sale is not deserving of First
Amendment protection would be the exception that swallows the
rule. Nearly all art and expressive speech has a commercial
aspect in its creation because artists’ and speakers’ livelihoods
often depend on its sale. But a paid speaker is still a speaker.
See Riley, 487 U.S. at 801.
4

67
No. 1:20-CV-1141, 2021 WL 1206805, at *1 (E.D. Va.
Mar. 30, 2021), and Elane Photography, LLC v.
Willock, 309 P.3d 53, 59 (N.M. 2013), wedding videos,
see Telescope Media Grp. v. Lucero, 936 F.3d 740, 750
(8th Cir. 2019), wedding floral arrangements, see
State v. Arlene’s Flowers, Inc., 441 P.3d 1203, 1225
(Wash. 2019), cert. denied, (U.S. July 2, 2021) (No. 19333), or even custom wedding invitations, see
Brush & Nib Studio, LC v. City of Phoenix, 448 P.3d
890, 908 (Ariz. 2019). It is obvious to even the most
casual viewer that Ms. Smith is creating a
customized art product—which incorporates unique,
expressive speech—for her customers.

Fig. 1 – A prototype of a wedding website page design
by Ms. Smith.

68
Yet the majority does not afford Ms. Smith’s pure
speech any protection, endorsing CADA’s compulsion
of both speech and silence. If Ms. Smith creates
wedding websites for opposite-sex couples, CADA
compels her to create wedding websites for same-sex
couples. She does not, for example, pre-design tshirts and set a stack of them on a shelf, available to
be picked up by any customer who walks in the store.
(If that were the case, CADA’s application would be
uncontroversial: Ms. Smith would be required to
serve every customer wanting to buy the predesigned t-shirt, regardless of protected class status.)
Instead, Ms. Smith’s wedding websites will be
custom-made, conveying both the couple’s message
about their wedding and Ms. Smith’s own beliefs
about and interpretation of marriage. So the majority
recognizes that CADA forces artists to create
individualized, expressive artwork that conveys a
message betraying their beliefs—yet finds this
constitutionally permissible. 5
As long as a public-accommodation law is applied neutrally
and not to expression, it is a commendable—and constitutional—
effort by a state to eliminate discriminatory treatment of
protected classes. See Hurley, 515 U.S. at 572 (“Provisions like
these are well within the State’s usual power to enact when a
legislature has reason to believe that a given group is the target
of discrimination, and they do not, as a general matter, violate
the First or Fourteenth Amendments.”); Masterpiece, 138 S. Ct.
at 1728 (“It is unexceptional that Colorado law can protect gay
persons, just as it can protect other classes of individuals, in
acquiring whatever products and services they choose on the
same terms and conditions as are offered to other members of
the public. And there are no doubt innumerable goods and
services that no one could argue implicate the First
Amendment.”).
5

69
This departs from the explanation of a case
substantially similar to this one, Telescope Media.
See 936 F.3d at 750. There, the Eighth Circuit
recognized that wedding videographers made videos
that, “[b]y design, . . . serve as a medium for the
communication of ideas about marriage” and are thus
“a form of speech that is entitled to First Amendment
protection.” Id. at 750–51 (internal quotation marks
omitted). Indeed, the Eighth Circuit acknowledged,
“once conduct crosses over to speech or other
expression, the government’s ability to regulate it is
limited.” Id. at 755. Because the publicaccommodation law thus required the videographers
“to speak favorably about same-sex marriage if they
choose to speak favorably about opposite-sex
marriage,” it impermissibly compelled speech. Id. at
752. And the Arizona Supreme Court came to a
similar conclusion about custom wedding invitations.
See Brush & Nib Studio, 448 P.3d at 914–15 (holding
that Arizona’s public-accommodations law had
compelled the pure speech of the custom wedding
invitation designers). Another federal court agreed
with regard to wedding photography. See Chelsey
Nelson Photography, 2020 WL 4745771, at *10; but
see Elane Photography, 309 P.3d at 59 (holding New
Mexico’s public- accommodations law did not compel
speech when enforced against wedding photographer
who refused to photograph same-sex weddings).
The majority instead concludes that Ms. Smith
must either agree to propound messages accepting
and celebrating same-sex marriage contrary to her
deeply held principles or face financial penalties and

70
remedial training under CADA. 6 This is not a
meaningful choice—nor is it one Colorado can or
should force her to make. See Hurley, 515 U.S. at 573
(recognizing the rule that the government “may not
compel affirmance of a belief with which the speaker
disagrees”).
This is the central lesson of Hurley. A state may
not regulate speech itself as a public accommodation
under anti-discrimination laws. But CADA does so
here, making Ms. Smith’s artistic talents the vehicle
for a message anathema to her beliefs. The expansive
view Colorado takes of CADA’s reach would not stop
with Ms. Smith’s wedding websites. Indeed, the

State could wield CADA as a sword, forcing an
unwilling Muslim movie director to make a film
with a Zionist message or requiring an atheist
muralist to accept a commission celebrating
Evangelical zeal. After all, the Muslim director
would make films and the atheist muralist would
paint murals for the general public with other
messages. And that, Colorado contends, is all
that is required to force them to accommodate a
customer’s request if it relates to the customer’s
protected class status:

These penalties include fines between $50 and $500 for
each violation, compulsory mediation, orders to comply with
CADA, and requirements that the charged party take other
remedial actions, including required training, reports, and
posting notices “setting forth the substantive rights of the
public.” Colo. Rev. Stat. §§ 24-34-602(1)(a), 24-34-306, 24-34-605.
But I doubt any amount of training or struggle session would
make Ms. Smith amenable to violating her conscience.
6

71
[CADA] requires commercial actors to
offer specific goods and services to
customers regardless of protected class
status only ‘if, and to the extent[,]’ the
merchant willingly provides those goods
and services to the general public. . . .
That those goods and services may
involve the vendor’s creative or expressive
skill does not change this analysis.
Appellee Br. at 46 (emphasis added). The majority
agrees, declaring that “unique goods and services are
where public accommodation laws are most
necessary to ensuring equal access.” Maj. Op. at 31.
It appears that the path to “coercive elimination of
dissent” is steep—and short. Barnette, 319 U.S. at
641.
Moreover, CADA compels silence. Ms. Smith
would like to post on her website an honest,
straightforward message about why she will only
make wedding websites for weddings involving one
man and one woman. 7 Endorsing same-sex marriage
7

Ms. Smith’s intended statement reads in full:
I love weddings.
Each wedding is a story in itself, the story of a couple
and their special love for each other.
I have the privilege of telling the story of your love and
commitment by designing a stunning website that
promotes your special day and communicates a unique
story about your wedding – from the tale of the
engagement, to the excitement of the wedding day, to the
beautiful life you are building together.
I firmly believe that God is calling me to this work. Why?
I am personally convicted that He wants me – during

72
is a message Ms. Smith will not create for any client.
But CADA prevents her from informing clients of
this. The State of Colorado can—and will, given its
arguments throughout this litigation and given its
past actions—penalize her. See, e.g., Masterpiece, 138
S. Ct. 1719, 1726 (2018) (discussing the penalties
imposed on Masterpiece Cakeshop by the
Commission); Masterpiece Cakeshop Inc. v. Elenis
(Masterpiece II), No.1:18-cv-02074-WYD-STV (D.
Colo. Jan. 4, 2019), ECF No. 94 (order on suit
regarding Colorado’s second enforcement action
brought against Masterpiece Cakeshop for refusing
to make a birthday cake celebrating a sex-change).
This reality forces Ms. Smith to stay silent about her

these uncertain times for those who believe in biblical
marriage – to shine His light and not stay silent. He is
calling me to stand up for my faith, to explain His true
story about marriage, and to use the talents and
business He gave me to publicly proclaim and celebrate
His design for marriage as a life-long union between one
man and one woman.
These same religious convictions that motivate me also
prevent me from creating websites promoting and
celebrating ideas or messages that violate my beliefs. So
I will not be able to create websites for same-sex
marriages or any other marriage that is not between one
man and one woman. Doing that would compromise my
Christian witness and tell a story about marriage that
contradicts God’s true story of marriage – the very story
He is calling me to promote.
Aplt. App. at 1-110.

73
convictions.

Fig. 2 – The statement Ms. Smith wishes to publish on
her business’s website.
Nor is Ms. Smith’s statement intended to be
derogatory or malicious. She forthrightly states her
firm conviction—grounded in her Christian faith—
that conscience requires her to create wedding
websites only for marriages between one man and
one woman. Doing otherwise, she states, would
“compromise [her] Christian witness.” Aplt. App. at
2-326.
Ms. Smith, like some other businesses that
espouse religious sentiments, is simply informing the
public that she operates her business in accordance
with her faith. And as an artist, she will not create
commissioned messages contrary to her beliefs. Her
business is firmly nondiscriminatory. Her policy
applies to all clients: as Ms. Smith’s counsel
explained at oral argument, she would not create a
same-sex wedding website—even a prototype for a
non-existent couple—for anyone, regardless of sexual
orientation. Her statement simply informs potential

74
clientele of the constraints of her faith, and the First
Amendment protects Ms. Smith’s right to do so.

C . Co ntentRestric tio n

and

View po int-Based

Like laws that compel speech, laws that restrict
speech based on content or viewpoint are also highly
suspect. As applied to Ms. Smith, CADA does both.
A law is content-based if it “applies to particular
speech because of the topic discussed or the idea or
message expressed.” Reed v. Town of Gilbert, Ariz.,
576 U.S. 155, 163 (2015); see also R.A.V. v. City of St.
Paul, Minn., 505 U.S. 377, 395 (1992). This “requires
a court to consider whether a regulation of speech ‘on
its face’ draws distinctions based on the message a
speaker conveys.” Reed, 576 U.S. at 163 (quoting
Sorrell v. IMS Health Inc., 564 U.S. 552, 566 (2011));
see also Aptive Env’t., LLC v. Town of Castle Rock,
Colo., 959 F.3d 961, 981–83 (10th Cir. 2020) (treating
an ordinance that facially distinguished between
commercial solicitation and other types of solicitation
as content-based). Of course, “[s]ome facial
distinctions based on a message are obvious, defining
regulated speech by particular subject matter, and
others are more subtle, defining regulated speech by
its function or purpose.” Id. But “[b]oth are
distinctions drawn based on the message a speaker
conveys, and, therefore, are subject to strict
scrutiny.” Id. at 163–64. Also subject to strict
scrutiny are laws that are facially content- neutral
but that “cannot be ‘justified without reference to the
content of the regulated speech,’ or that were adopted
by the government ‘because of disagreement with the
message the speech conveys.’” Id. at 164 (quoting

75
Ward v. Rock Against Racism, 491 U.S. 781, 791
(1989)) (alterations incorporated). All of these types
of content-based regulations—which “target speech
based
on
its
communicative
content—are
presumptively unconstitutional and may be justified
only if the government proves that they are narrowly
tailored to serve compelling state interests.” Reed,
576 U.S. at 163.
Furthermore, a law that discriminates based on
viewpoint is an even more “blatant” violation of the
First Amendment. Rosenberger v. Rector & Visitors of
Univ. of Virginia, 515 U.S. 819, 829 (1995). Because
the government is regulating “speech based on ‘the
specific motivating ideology or the opinion or
perspective of the speaker,’” it is a more “egregious
form of content discrimination.” Reed, 576 U.S. at 168
(quoting
Rosenberger,
515
U.S.
at
829).
Consequently, the “government must abstain from
regulating speech when the specific motivating
ideology or the opinion or perspective of the speaker
is the rationale for the restriction.” Rosenberger, 515
U.S. at 829. The First Amendment thus “forbid[s] the
State to exercise viewpoint discrimination,” and such
a regulation must undergo the strictest scrutiny. Id.
As the majority recognizes, CADA is indisputably
a content- and viewpoint-based regulation. The
“crucial first step in the content-neutrality analysis
[is] determining whether the law is content neutral
on its face.” Reed, 576 U.S. at 165. Take, for
example, the provision that requires an arbiter to—
at the very least—read a challenged “communication,
. . . notice, or advertisement” to determine whether it
“indicates that the full and equal enjoyment” of the
public accommodation “will be refused, withheld

76
from, or denied an individual.” Colo. Rev. Stat. § 2434-601(2)(a).
The
permissibility
of
the
communication depends on what it says—or, stated
simply, its content.
Similarly, determining whether a person has been
denied accommodation because of a protected class
status requires, of course, an inquiry into the
motivation behind the denial. (This is, in large part,
why the Commission exists.) Because the content of
the message determines the applicability of the
statute and the viewpoint of the speaker determines
the legality of the message, CADA is both contentand viewpoint-based. But both point to the same
conclusion: “A law that is content-based on its face is
subject to strict scrutiny regardless of the
government’s benign motive, content-neutral
justification, or lack of animus toward the ideas
contained in the regulated speech.” Reed, 576 U.S. at
165 (internal quotation marks omitted).
* * *
Whether CADA compels speech or regulates
speech based on its content or discriminates against
speech based on its viewpoint—or all three—one
thing is clear, as the majority concedes: CADA must
undergo strict scrutiny. Under a proper application
of strict scrutiny, CADA fails to pass constitutional
muster.

D . CADA Fails Stric t Sc rutiny
Although the majority properly finds CADA
compels expressive speech, see Maj. Op. at 24, it
resists the firm teaching of precedent that the
resulting compulsion violates the Constitution. And

77
even though the majority also agrees that CADA is a
content-based restriction on speech, see Maj. Op. at
25, its permissive application of strict scrutiny is
troubling. The majority tells us not to worry because
Colorado has good reasons to violate Ms. Smith’s
conscience for the greater good. After all, she is only
one person out of many. But this is misguided. See
Barnette, 319 U.S. at 638 (“The very purpose of a Bill
of Rights was to withdraw certain subjects from the
vicissitudes of political controversy, to place them
beyond the reach of majorities and officials and to
establish them as legal principles to be applied by the
courts. One’s right to life, liberty, and property, to
free speech, a free press, freedom of worship and
assembly, and other fundamental rights may not be
submitted to vote; they depend on the outcome of no
elections.”).
To be sure, the Supreme Court has warned that it
“wish[es] to dispel the notion that strict scrutiny is
strict in theory, but fatal in fact.” Adarand
Constructors, Inc. v. Pena, 515 U.S. 200, 237 (1995)
(internal quotation marks omitted). But “it is the rare
case in which a State demonstrates” that a provision
passes strict scrutiny. Williams-Yulee v. Fla. Bar,
575 U.S. 433, 444 (2015) (internal quotation marks
omitted). In the context of expressive speech, the
stakes are high—so a rigorous application of strict
scrutiny is vital.
As the majority acknowledges, strict scrutiny
requires the government to demonstrate that the
provision “is justified by a compelling government
interest and is narrowly drawn to serve that
interest.” Brown, 564 U.S. at 799; see also Pac. Gas
& Elec. Co., 475 U.S. 1, 19 (1986) (holding that a law

78
that compels speech is only valid if it is a “narrowly
tailored means of serving a compelling state
interest”). When determining whether a law is
narrowly tailored, “the court should ask whether the
challenged regulation is the least restrictive means
among available, effective alternatives.” Ashcroft v.
ACLU, 542 U.S. 656, 666 (2004). And in the freespeech context, “narrow” means the law must “avoid
unnecessarily abridging speech.” See WilliamsYulee, 575 U.S. at 444. It also means a law cannot be
overinclusive, see Brown, 564 U.S. at 804, or
underinclusive, see Reed, 576 U.S. at 171–72. The
existence of administrable, reasonable alternatives
indicate the law is not sufficiently narrow to survive
the rigors of strict scrutiny. See Ashcroft, 542 U.S. at
666. Ultimately, the court’s task is to ensure that
“speech is restricted no further than necessary to
achieve the [government’s] goal[.]” Id.
CADA is not narrowly tailored so as to survive its
encroachment on First Amendment liberties.
Eliminating discrimination in places of public
accommodation is undeniably a compelling state
interest. See Roberts v. U.S. Jaycees, 468 U.S. 609,
628 (1984) (“[A]cts of invidious discrimination in the
distribution of publicly available goods, services, and
other advantages cause unique evils that government
has a compelling interest to prevent[.]”). And as a
general proposition, “ensuring ‘equal access to
publicly available goods and services’” is also a
compelling government interest. Maj. Op. at 28
(quoting U.S. Jaycees, 468 U.S. at 624). But ensuring
access to a particular person’s unique, artistic
product—as the majority holds, see Maj. Op. at 33—

79
is not a compelling state interest. 8 Nor does the
majority cite any case law to support this
unconventional characterization of a compelling
interest.
And in advancing its aims, Colorado has failed to
narrowly tailor CADA so as to preserve vital speech
protections. For one, CADA is overinclusive,
intruding into protected speech both by compelling it
and by suppressing it, as discussed above. For
another,
there
are
reasonable,
practicable
alternatives Colorado could implement to ensure
market access while better protecting speech.
8 In concluding that CADA is narrowly tailored, the majority
appears to conflate the compelling-interest analysis with the
narrow-tailoring analysis. The majority states that CADA is
“narrowly tailored to Colorado’s interest in ensuring access to
the commercial marketplace.” Maj. Op. at 33. Although the
majority acknowledges that “the commercial nature of [Ms.
Smith’s] business does not diminish [her] speech interest,” id. at
28, the opinion then states that this same commercial nature
allows Colorado to regulate it.

But this statement—and the ensuing discussion—is not
aimed at how narrowly CADA is or is not tailored; rather, it
confuses the means (how a State accomplishes its compelling
interest) with the ends (the State’s compelling interest it seeks
to further). Put differently, the majority appears to endorse the
proposition that if the government’s compelling interest is drawn
narrowly enough, the government may use any means to further
it. Other than pointing out how CADA is aimed at regulating
commercial behavior, the majority says nothing about how
CADA uses the least restrictive means to accomplish its goal and
“avoid[s] unnecessarily abridging speech.” See Williams-Yulee,
575 U.S. at 444. The majority’s discussion on this point merely
reiterates Colorado’s purportedly compelling interest in
providing market access to Ms. Smith’s website designs in
particular.

80
Colorado could simply take seriously (and codify) its
own statement that CADA allows for message-based
exceptions. See Appellee Br. at 62 (“[T]he
Commission does not interpret [CADA] to require
any business owner, regardless of religious beliefs, to
produce a message it would decline to produce for any
customer.”). This practicable alternative protects
artists’ speech interests while not harming the state’s
interest in ensuring market access. After all, the
Commission claims to interpret CADA in this way
already.
Alternatively, Colorado could allow artists—those
who are engaged in making expressive, custom art—
to select the messages they wish to create, free from
fear of retribution. Or Colorado could exempt from
CADA artists who create expressive speech about or
for weddings, as Mississippi does. See Miss. Code
Ann. § 11-62-5(5). Colorado could also modify its
definition of “place of public accommodation” by
placing expressive businesses beyond its reach. See
Colo. Rev. Stat. § 24-34-601(1). Indeed, CADA
already
excludes
one
type
of
expressive
establishment: “places principally used for religious
purposes.” Id.
In any event, the majority overlooks these simple
answers that would keep Colorado properly within
the bounds of the Constitution. Instead, the majority
allows the government to dictate what shall and shall
not be said, impinging on the most vital First
Amendment liberties. Rather than embracing the
idea that creative, expressive works are even
worthier of First Amendment protection by virtue of
their originality and intrinsic worth, the majority
comes to the opposite conclusion. It holds that

81
“unique goods and services are where public
accommodation laws are most necessary to ensuring
equal access.” Maj. Op. at 32. It premises this
argument on the idea (novel to the First Amendment)
of a “monopoly of one,” characterizing the “product at
issue [as] not merely ‘custom-made wedding
websites,’ but rather ‘custom-made wedding websites
of the same quality and nature as those made by [Ms.
Smith].’” Id. at 30–31 (emphasis added). The majority
then concludes that “monopolies present unique antidiscrimination concerns,” justifying regulation of a
market in which “only [Ms. Smith] exist[s].” Id. at 30.
But this reductive reasoning leads to absurd
results. By describing custom artists as creating a
monopoly of one, the majority uses the very quality
that gives the art value—its expressive and singular
nature—to cheapen it. In essence, the majority holds
that the more unique a product, the more
aggressively the government may regulate access to
it—and thus the less First Amendment protection it
has. 9 This is, in a word, unprecedented. And this
interpretation subverts our core understandings of
the First Amendment. After all, if speech can be
regulated by the government solely by reason of its
novelty, nothing unique would be worth saying. And
because essentially all artwork is inherently “not

This was not the conclusion reached by the Hurley Court.
Consider what was at issue in that case: participation in the
Boston St. Patrick’s Day–Evacuation Day Parade. What could
possibly be more unique and non-fungible than marching in this
famous, storied parade? See Hurley, 515 U.S. at 560–61
(discussing the long history of the parade).
9

82
fungible,” id. at 28, the scope of the majority’s opinion
is staggering.
Taken to its logical end, the government could
regulate the messages communicated by all artists,
forcing them to promote messages approved by the
government in the name of “ensuring access to the
commercial marketplace.” 10Id. at 27.
In sum, I am persuaded by what Justice Jackson
wrote nearly 80 years ago: “If there is any fixed star
in our constitutional constellation, it is that no
official, high or petty, can prescribe what shall be
orthodox in politics, nationalism, religion, or other
matters of opinion or force citizens to confess by word
or act their faith therein.” Barnette, 319 U.S. at 642.
These words are as true now as they were then.

II. Free Exercise
The majority then turns to Ms. Smith’s right to
freely exercise her religious beliefs. State actions that
infringe on this right enshrined in the First
Amendment can range from extreme (and
unconstitutional) to permissible. A short review of
the legal framework demonstrates where CADA’s
application to Ms. Smith falls on this spectrum.
At one end of the spectrum are neutral laws that
are generally applicable, which treat religious and
The majority points out that its holding “does not address
how CADA might apply to non-commercial activity (such as
commissioning a mural for some charitable purpose).” Maj. Op.
at 33 n.6. But this is surely cold comfort for the vast majority of
artists, who make a living by selling their work. Artists should
not have to choose to either disavow their beliefs or charitably
create in order to have control over their own messages.
10

83
secular entities the same. See Emp. Div., Dep’t of
Human Res. of Or. v. Smith, 494 U.S. 872, 878–79
(1990); Fulton v. City of Philadelphia, 141 S. Ct.
1868, 1876 (2021). 11 These laws are subject to
On June 17, 2021, the Supreme Court issued its opinion in
Fulton v. Philadelphia, a case in which Philadelphia had ended
its relationship with Catholic Social Services for approving foster
parents because CSS’s religious beliefs on marriage prevented it
from approving same-sex couples. 141 S. Ct. at 1874. Although
one of the issues presented was whether Employment Division v.
Smith should be overturned, the Court held that “[t]his case falls
outside Smith” because Philadelphia’s policies were not
“generally applicable.” Id. at 1878.
11

Nevertheless, since Smith, several Supreme Court justices
have written or joined in expressing doubt about Smith’s free
exercise jurisprudence. See, e.g., Fulton, 141 S. Ct. at 1882
(Barrett, J., concurring) (“In my view, the textual and structural
arguments against Smith are more compelling. As a matter of
text and structure, it is difficult to see why the Free Exercise
Clause—lone among the First Amendment freedoms—offers
nothing more than protection from discrimination.”); Id. at 1883
(Alito, J., concurring) (writing that “[Smith’s] severe holding is
ripe for reexamination” and “correct[ion]”); Id. at 1926 (Gorsuch,
J., concurring) (“Smith failed to respect this Court’s precedents,
was mistaken as a matter of the Constitution’s original public
meaning, and has proven unworkable in practice.”); Kennedy v.
Bremerton Sch. Dist., 139 S. Ct. 634, 637 (2019), denial of cert.
(Alito, J., concurring, joined by Thomas, Gorsuch, and
Kavanaugh, JJ.) (writing that Smith “drastically cut back on the
protection provided by the Free Exercise Clause”); City of Boerne
v. Flores, 521 U.S. 507, 548 (1997) (O’Connor, J., dissenting)
(stating that “Smith is gravely at odds with our earlier free
exercise precedents.”); id. at 565 (Souter, J., dissenting) (“I have
serious doubts about the precedential value of the Smith rule
and its entitlement to adherence.”); id. at 566 (Breyer, J.,
dissenting); Church of the Lukumi Babalu Aye, Inc. v. City of
Hialeah, 508 U.S. 520, 559 (1993) (Souter, J., concurring in part
and concurring in the judgment). And recent COVID-restrictionrelated opinions have cast doubt on Smith’s precedential value

84
rational basis review. A “law that is both neutral and
generally applicable need only be rationally related
to a legitimate governmental interest to survive a
constitutional challenge.” Grace United Methodist
Church v. City of Cheyenne, 451 F.3d 643, 649 (10th
Cir. 2006); see also Smith, 494 U.S. at 878–79.
Furthermore, “a law that is neutral and of general
applicability need not be justified by a compelling
governmental interest even if the law has the
incidental effect of burdening a particular religious
practice.” Church of the Lukumi Babalu Aye, Inc. v.
City of Hialeah, 508 U.S. 520, 531 (1993) (emphasis
added). “[A]n individual’s religious beliefs [do not]
excuse him from compliance with an otherwise valid
law prohibiting conduct that the State is free to
regulate.” Smith, 494 U.S. at 878–79.
But a state’s discriminatory treatment—hidden
in the guise of facial neutrality— may be less
apparent. See Lukumi Babalu Aye, 508 U.S. at 534
(“Facial neutrality is not determinative. The Free
Exercise Clause . . . extends beyond facial
discrimination.”). A law may place certain secular
activities in a favored category at the same time it
places religious activities in a less favorable
category—perhaps by denying them exemptions or
excluding them from benefits or beneficial treatment.
for cases in which a state’s facially neutral regulations result in
disparate treatment between secular and religious entities. See
Tandon v. Newsom, 141 S. Ct. 1294, 1296 (2021) (per curiam);
Roman Cath. Diocese of Brookyn v. Cuomo, 141 S. Ct. 63, 67
(2020) (per curiam).
But because this case presents the “individualized
exemptions” exception to Smith, we need not predict whether
Smith has continued viability.

85
See id. at 537–38. But “[t]he Free Exercise Clause
bars even ‘subtle departures from neutrality’ on
matters of religion.” Masterpiece, 138 S. Ct. at 1731.
As a result, “government regulations are not neutral
and generally applicable, and therefore trigger strict
scrutiny under the Free Exercise Clause, whenever
they treat any comparable secular activity more
favorably than religious exercise.” Tandon v.
Newsom, 141 S. Ct. 1294, 1296 (2021) (per curiam)
(emphasis in original); see also Roman Cath. Diocese
of Brooklyn v. Cuomo, 141 S. Ct. 63, 67 (2020) (per
curiam) (stating that because COVID-related
capacity restrictions resulted in disparate treatment
between houses of worship and some businesses, the
restrictions were not neutral and generally
applicable and thus subject to strict scrutiny).
The Supreme Court has identified at least two
ways in which a law can lack general applicability,
thereby triggering strict scrutiny review. One of
these is “if [a law] prohibits religious conduct while
permitting secular conduct that undermines the
government’s asserted interests in a similar way.”
Fulton, 141 S. Ct. at 1877. Such a law might be
underinclusive, targeting only certain harms
purportedly caused by religious conduct while
permitting similar harms by others. See Lukumi
Babalu Aye, 508 U.S. at 545–46.
The other manner in which a law may not be
generally applicable is the individualized exemption
exception. “A law is not generally applicable if it
‘invites’ the government to consider the particular
reasons for a person’s conduct by providing ‘a
mechanism for individualized exemptions.’” Fulton,
141 S. Ct. at 1877 (quoting Smith, 494 U. S., at 884)

86
(alterations incorporated); see also Grace United
Methodist Church, 451 F.3d at 650. “[T]he
individualized exemption exception inquiry can be
summarized as follows: as long as a law remains
exemptionless, it is considered generally applicable
and religious groups cannot claim a right to
exemption; however, when a law has secular
exemptions, a challenge by a religious group becomes
possible.” Grace United Methodist Church, 451 F.3d
at 650. Accordingly, this exception “is limited . . . to
systems that are designed to make case-by-case
determinations.” Axson-Flynn, 356 F.3d at 1298
(finding that a university’s treatment of an LDS
student’s right to free exercise of her religion was
part of a system of individualized exemptions
because it had granted an exception to a Jewish
student). This is because such a system “permit[s] the
government to grant exemptions based on the
circumstances underlying each application” of the
law. Fulton, 141 S. Ct. at 1877. Accordingly, “[t]o
ensure that individuals do not suffer unfair
treatment on the basis of religious animus, subjective
assessment systems that invite consideration of the
particular circumstances behind an applicant’s
actions . . . trigger strict scrutiny.” Grace United
Methodist Church, 451 F.3d at 651 (internal
quotation marks omitted).
At the far end of the spectrum, a state violates the
right to free exercise when it expressly discriminates
against—or demonstrates animus toward—religion.
This type of action is subject to the “strictest
scrutiny.” Trinity Lutheran Church of Columbia, Inc.
v. Comer, 137 S. Ct. 2012, 2019 (2017) (“The Free
Exercise Clause ‘protect[s] religious observers

87
against unequal treatment’ and subjects to the
strictest scrutiny laws that target the religious for
‘special disabilities’ based on their ‘religious status.’”
(quoting Lukumi Babalu Aye, 508 U.S. at 533)). As
Justice Kennedy wrote in another case involving
CADA, “[T]he government, if it is to respect the
Constitution’s guarantee of free exercise, cannot
impose regulations that are hostile to the religious
beliefs of affected citizens and cannot act in a manner
that passes judgment upon or presupposes the
illegitimacy of religious beliefs and practices.”
Masterpiece, 138 S. Ct. at 1731. In other words, a
statute that discriminates against religious beliefs or
prohibits conduct because they are religious must
pass strict scrutiny review. Lukumi Babalu Aye, 508
U.S. at 531–33, 546. This type of law is invalid unless
it is narrowly tailored to accomplish the
government’s compelling interest. See Grace United
Methodist Church, 451 F.3d at 649 (“[I]f a law that
burdens a religious practice is not neutral or
generally applicable, it is subject to strict scrutiny,
and the burden on religious conduct violates the Free
Exercise Clause unless it is narrowly tailored to
advance a compelling governmental interest.”).
Given this legal framework, CADA clearly
violates Ms. Smith’s Free Exercise rights.
Colorado asserts that CADA is a neutral,
generally applicable law because it purports to
regulate only commercial conduct, or the “terms and
conditions under which a business chooses to offer
goods or services for sale to the public.” Appellee Br.
at 38. All that CADA requires of Ms. Smith,
therefore, is that she “make that product or service

88
available to all customers regardless of protected
class status.” Appellee Br. at 38. If
CADA were enforced exactly in this even-handed
manner, perhaps it would be neutral and generally
applicable, and perhaps it would pass the resulting
rational basis scrutiny. 12
But this is not how CADA works. Colorado has
allowed exceptions. In fact, the entire CADA
enforcement mechanism is structured to make caseby-case determinations. See Maj. Op. at 6–7
(discussing investigative and adjudicative processes
dictated by CADA). CADA deputizes anyone to file a
complaint challenging a business practice, and the
Commission is required to investigate and rule on
each complaint individually. Id. There is no
meaningful difference between the Commission’s role
in enforcing CADA here and the Commissioner’s role
in Fulton in parceling out exceptions for foster care
contracts. In that case, Philadelphia’s provision
“incorporate[d] a system of individual exemptions,
made available . . . at the sole discretion of the
Commissioner.” Fulton, 141 S. Ct. at 1878 (internal
quotation marks omitted). And, as here, Philadelphia
“made clear that the Commissioner ‘ha[d] no
intention of granting an exception’” to the Catholic
charity. Id. (quoting the petition for certiorari). But
in cases where this causes “religious hardship,” held
the Court, this “exception system” triggers strict
scrutiny. Id. (quoting Smith, 494 U.S. at 884).

As discussed above, 303 Creative does not deny website
services based on sexual orientation.
12

89
The Colorado Civil Rights Commission operates
under exactly the same ad-hoc system as in Fulton.
The Commission is the sole arbiter for handling
complaints
submitted to it—decreeing when a religious objection
is valid 13 and when it is not, doling out punishment
and reprieve based on its own standards. As the
Supreme Court has made clear, “in circumstances in
which individualized exemptions from a general
requirement are available, the government ‘may not
refuse to extend that system to cases of religious
hardship without compelling reason.’” Lukumi
Babalu Aye, 508 U.S. at 537 (quoting Smith, 494 U.S.
at 884); see also Fulton, 141 S. Ct. at 1878; Tandon,
141 S. Ct. at 1296. 14 Because CADA’s enforcement
13 Or, for that matter, whether a sex-related “restriction has
a bona fide relationship to the goods, services, facilities,
privileges, advantages, or accommodations of such place of
public accommodation.” Colo. Rev. Stat. § 24-34-601(3).

The majority declines to apply heightened scrutiny under
a hybrid-rights theory because it concludes that Ms. Smith’s free
speech claim fails. See Maj. Op. at 47. But because CADA
employs case-by-case individualized exemptions, it triggers
strict scrutiny, see Lukumi Babalu Aye, 508 U.S. at 537, not the
“heightened scrutiny” required in the hybrid-rights context, see
Axson-Flynn, 356 F.3d at 1295.
14

Moreover, jurists and scholars have expressed doubts as to
the practical validity of Smith’s hybrid-rights doctrine,
characterizing it as dicta, difficult to define, illogical, and
untenable. See, e.g., Lukumi Babalu Aye, 508 U.S. at 567
(Souter, J., concurring) (“And the distinction Smith draws
strikes me as ultimately untenable. If a hybrid claim is simply
one in which another constitutional right is implicated, then the
hybrid exception would probably be so vast as to swallow the
Smith rule, and, indeed, the hybrid exception would cover the
situation exemplified by Smith.”); Axson-Flynn, 356 F.3d at 1301

90
requires the Commission to make individualized
assessments of complaints—which is necessarily
structured to allow individualized exemptions for
some and not for others—it must undergo strict
scrutiny.
The arbitrary way in which Colorado has handed
out exceptions to CADA is best demonstrated by a
(“We agree with the district court that the law regarding this
controversial ‘hybrid-rights’ exception is not clearly established,
and even this Court has recognized that ‘[i]t is difficult to
delineate the exact contours of the hybrid-rights theory
discussed in Smith.’” (quoting Swanson, 135 F.3d at 699));
Kissinger v. Bd. of Trustees of Ohio State Univ., Coll. of
Veterinary Med., 5 F.3d 177, 180 (6th Cir. 1993) (criticizing the
hybrid-rights doctrine as illogical and declining to apply it);
Michael W. McConnell, Free Exercise Revisionism and the Smith
Decision, 57 U. Chi. L. Rev. 1109, 1122 (1990) (“[A] legal realist
would tell us . . . that the Smith Court’s notion of ‘hybrid’ claims
was not intended to be taken seriously.”). And courts are “divided
on the strength of the independent constitutional right claim
that is required to assert a cognizable hybrid rights claim, with
a number of courts, including this circuit, expressing the view
that a litigant is required to assert at least a ‘colorable’ claim to
an independent constitutional right to survive summary
judgment.” Grace United Methodist Church, 451 F.3d at 656.
Regardless, in a similar case on wedding videography, the
Eighth Circuit acknowledged that the hybrid-rights doctrine
supported a free speech claim that was intertwined with a free
exercise claim. See Telescope Media, 936 F.3d at 758. But it may
simply be a distinction without a difference, for as the Telescope
Media panel stated, “it is not at all clear that the hybrid-rights
doctrine will make any real difference in the end. After all, the
[appellants’] free-speech claim already requires the application
of strict scrutiny.” Id. at 760. The same is true here.

91
familiar case: Masterpiece. See 138 S. Ct. at 1730.
There, the Court delivered a stinging rebuke to the
Commission, declaring that its “treatment of [the
baker’s] case ha[d] some elements of a clear and
impermissible hostility toward the sincere religious
beliefs that motivated his objection.” Id. at 1729.
Besides this remarkable reprimand, though,
Masterpiece has additional relevance here with
respect to the differential treatment of religious
individuals. Masterpiece’s applicability is not, as the
majority would have it, related to any animus (or lack
thereof) of the Commission. Rather, it indicates how
the CADA-created system of individualized
exceptions is designed for—and has already resulted
in—disparate treatment, particularly for religious
speakers. For example, during the pendency of the
Masterpiece litigation, a professing Christian man,
William Jack, filed CADA complaints against three
bakeries for refusing to make cakes that expressed
opposition to same-sex marriage. Aplt. App. at 1-027–
28; see also Masterpiece Cakeshop, 138 S. Ct. at 1728.
But the Commission found that there was “no
probable cause” to Mr. Jack’s “creed” discrimination
complaints because the bakeries would not have
made cakes with those messages for any customer,
regardless of creed. But around the same time, the
Commission concluded that Masterpiece Cakeshop
had violated CADA by refusing to make a cake
because of the customer’s status—that is, sexual
orientation. In other words, the Commission
contended, the Jack cases were acceptable messagebased refusals, while the Masterpiece case was an
unacceptable status-based refusal.

92
But this evinces a failure to act neutrally toward
religious belief. Masterpiece, 138 S. Ct. at 1730
(“Another indication of hostility is the difference in
treatment between Phillips’ case and the cases of
other bakers who objected to a requested cake on the
basis of conscience and prevailed before the
Commission.”). As Justice Gorsuch pointed out, the
Commission “slid[] up and down the mens rea scale,
picking a mental state standard to suit its tastes
depending on its sympathies” in coming to these
inconsistent conclusions. Id. at 1737 (Gorsuch, J.,
concurring). Such “gerrymander[ing]” leads to
unacceptable “results-driven reasoning” by civil
authorities. 15 Id. at 1739. Stated more simply, the
Commission cannot use different standards for
religious individuals and non-religious individuals.
See id. at 1737 (“But the one thing [the Commission]
can’t do is apply a more generous legal test to secular
objections than religious ones.”). This type of
differential treatment is the most intolerable of the
The majority disagrees, holding that Colorado may engage
in “a gerrymander favoring LGBT customers, as opposed to a
gerrymander disfavoring religious-speakers.” Maj. Op. at 41.
But in doing so, the majority places the burden on the wrong
party. In a system of case-by-case adjudication exactly like this
one—where the Commission would determine whether a
person’s objection to same-sex marriage is religiously
motivated—strict scrutiny must apply. See also Fulton, 141 S.
Ct. at 1878. As the Supreme Court has made clear, “the
government has the burden to establish that the challenged law
satisfies strict scrutiny.” Tandon, 141 S. Ct. at 1296. The
majority disregards this, stating that Ms. Smith “provide[s] no
evidence that Colorado permits secularly-motivated objections to
serving LGBT consumers.” Maj. Op. at 41 (internal citations to
Lukumi Babalu Aye omitted). Of course, it is the government’s
job to prove CADA passes muster—not Ms. Smith’s.
15

93
“individualized exemption” exception to Smith, as
recognized in Lukumi Babalu Aye., 508 U.S. at 537
(quoting Smith, 494 U.S. at 884).
And contrary to the majority’s assertion, Colorado
may not “gerrymander” CADA, see Maj. Op. at 39, to
benefit a certain group when its practical effect is to
violate the rights of another. See Lukumi Babalu
Aye, 508 U.S. at 524 (invalidating ordinances where
“the principle of general applicability was violated
because the secular ends asserted in defense of the
laws were pursued only with respect to conduct
motivated by religious beliefs”); id. at 535
(determining the validity of the law by looking to the
“ordinances’ operation” (emphasis added)).
Despite all this, Colorado continues to profess
that CADA allows for message- based refusals,
stating:
“[T]he Commission does not interpret
[CADA] to require any business owner, regardless of
religious beliefs, to produce a message it would
decline to produce for any customer.” 16 Appellee Br.
The majority states that “[m]essage-based refusals are not
an ‘exemption’ from CADA’s requirements; they are a defense.”
Maj. Op. at 43. This contradicts Colorado’s own position that the
Commission “interpret[s] [CADA]” to allow message-based
refusals; if Colorado says it interprets the law this way, it
provides guidance to business owners before a complaint is filed,
not after. Such an interpretation gives notice to business owners
that they may make message-based refusals without fear that
they will be dragged before the Commission to present this
argument as a defense. And such an interpretation should
prevent the Commission from seriously investigating any
complaint based on a message-based refusal in the first
instance—thus “free[ing] or releas[ing]” message-based refusals
from liability under CADA. See Exempt, Black’s Law Dictionary
(11th ed. 2019).
16

94
at 62. As Ms. Smith’s counsel affirmed at oral
argument, Ms. Smith would refuse to make any
message celebrating same-sex marriage for any
client, regardless of sexual orientation. This is
exactly the type of refusal Colorado claims Ms. Smith
can make: a message-based refusal not rooted in the
identity or status of the client. But again, Colorado
slides up and down the mens rea scale, presuming
that Ms. Smith has discriminatory intent in her
faith-based refusal while allowing other artists to
refuse to convey messages contrary to their nonfaith-based beliefs. Just because Ms. Smith’s beliefs
may seem to be a minority viewpoint to Colorado does
not give it the right to presume ill-intent. 17 On the
But even assuming that the majority’s characterization is
correct, a defense available only to some and not others based on
protected class status triggers strict scrutiny. The majority
claims that “[o]stensibly, message-based refusals are unrelated
to class-status,” Maj. Op. at 43, but in CADA’s enforcement
history, they can and have been related to protected class status.
It is precisely why the differential treatment between the secular
bakeries’ refusals and Jack Phillips’s refusal in Masterpiece has
enduring relevance here: because both were making a messagebased refusal, Colorado demonstrated religious animus in
crediting one and not the other. Masterpiece, 138 S. Ct. at 1731.
Or imagine a Muslim muralist, contacted by a Jewish restaurant
owner requesting a depiction of the Israeli flag with a Zionist
message. The Muslim muralist might refuse to paint such a
message—but the message is undeniably intertwined with the
Jewish restaurant owner’s protected religious class status. Even
though “message-based refusals may be objectively defined,”
Maj. Op. at 44, Colorado can and does enforce its purported
message-based-refusal rule in a subjective manner based on
protected class status. This requires strict scrutiny review.
As the Supreme Court made clear in Obergefell,
individuals with religious convictions about marriage
17

95
contrary, it is precisely because Ms. Smith’s views
may be in the minority that they must be afforded the
greatest protection. See Masterpiece, 138 S. Ct. 1737
(Gorsuch, J., concurring) (“Popular religious views
are easy enough to defend. It is in protecting
unpopular religious beliefs that we prove this
country’s commitment to serving as a refuge for
religious freedom.”); Fulton, 141 S. Ct. at 1925 (Alito,
J., concurring) (“Suppressing speech—or religious
practice—simply because it expresses an idea that
some find hurtful is a zero-sum game.”). This is the
promise of the Free Exercise Clause, and it is why
Colorado’s treatment of Ms. Smith’s religious beliefs
must be rejected.
Indeed, we need only look at our own precedent.
In Axson-Flynn, the University of Utah refused to
exempt an LDS student from speaking profanity in
her acting program—which she refused to do because
of her religious beliefs—but did grant an exemption
for a Jewish student who refused to perform on Yom
Kippur. Axson-Flynn, 356 F.3d at 1298. Because this
meant the University had a system of individualized
exemptions, the panel concluded the LDS student
may continue to advocate with utmost, sincere
conviction that, by divine precepts, same-sex
marriage should not be condoned. The First
Amendment
ensures
that
religious
organizations and persons are given proper
protection as they seek to teach the principles
that are so fulfilling and so central to their lives
and faiths, and to their own deep aspirations to
continue the family structure they have long
revered.
Obergefell v. Hodges, 576 U.S. 644, 679–80 (2015).

96
had raised a genuine issue of material fact as to
whether her case fell in the “individualized
exemption” exception. In other words, the University
“maintained a discretionary system of making
individualized
case-by-case
determinations
regarding who should receive exemptions from
curricular requirements,” indicating it was not
demonstrating the requisite neutrality to the
student’s religious beliefs. Id. at 1299. Furthermore,
the “‘system of individualized exemptions’ need not
be a written policy, but rather the plaintiff may show
a pattern of ad hoc discretionary decisions amounting
to a ‘system.’” Id.
By demonstrating that CADA sets up a case-bycase system for determining exceptions, Ms. Smith
has shown CADA’s application here must be
reviewed with strict scrutiny with regard to the free
exercise claims. See Fulton, 141 S. Ct. at 1878; id. at
1881 (“A government policy can survive strict
scrutiny only if it advances ‘interests of the highest
order’ and is narrowly tailored to achieve those
interests.” (quoting Lukumi, 508 U. S. at 546)). “So
long as [Colorado] can achieve its interests in a
manner that does not burden religion, it must do so.”
Id. at 1881.
But for the same reasons CADA fails strict
scrutiny with regard to Ms. Smith’s free speech
claims, it fails with regard to the free exercise claims.
See Grace United Methodist Church, 451 F.3d at 649
(“[I]f a law that burdens a religious practice is not
neutral or generally applicable, it is subject to strict
scrutiny, and the burden on religious conduct violates
the Free Exercise Clause unless it is narrowly
tailored to advance a compelling governmental

97
interest.”). With regard to the compelling interest
analysis, Colorado bears the burden of proving not
that it “has a compelling interest in enforcing its nondiscrimination policies generally, but whether it has
such an interest in denying an exception” to Ms.
Smith. Fulton, Slip Op. at 14. Colorado has not done
so here. And with respect to the narrow tailoring
analysis, Colorado must show CADA is not “the least
restrictive means among available, effective
alternatives.” Ashcroft, 542 U.S. at 666. But, as
discussed above, effective alternatives do exist.
Colorado says it allows message- based refusals for
religious beliefs. Given its infamous history in not
administering these exceptions in a neutral way, see
Masterpiece, 138 S. Ct. at 1729, perhaps Colorado can
write this provision into CADA. Or perhaps it could
exempt religious speakers when their refusal to
provide a service or product is rooted in a sincerely
held religious belief. Or again, Colorado could exempt
faith-based artists who speak about weddings from
the requirements of CADA.
When all is said and done, allowing business
owners like Ms. Smith to operate in accordance with
the tenets of their faiths does not damage society but
enriches it. Indeed, “we apply the limitations of the
Constitution with no fear that freedom to be
intellectually and spiritually diverse or even contrary
will disintegrate the social organization.” Barnette,
319 U.S. at 641. Religious liberty is among the purest
forms of self- determination because it allows
believers to retain sovereignty of the soul. Because of
this, the “Free Exercise Clause commits government
itself to religious tolerance.” Lukumi Babalu Aye, 508
U.S. at 547. Even though Colorado has not committed

98
itself to respect this diversity, our First Amendment
protects Ms. Smith.

III.

Facial Challenge for Overbreadth and
Vagueness

Finally, the majority fails to protect Ms. Smith
from CADA’s Orwellian diktat that regulates
businesses based on the subjective experience of
customers. CADA contains a breathtakingly broad
and vague provision prohibiting “directly or
indirectly” speaking in such a way that makes a
customer
feel
“unwelcome,
objectionable,
unacceptable, or undesirable” because of a protected
characteristic. 18 Colo. Rev. Stat. § 24-34-601(2)(a).
Facially and as applied to Ms. Smith, this
“Unwelcome
Provision”
easily
flunks
the
requirement that fair notice be given to citizens about
what can or cannot be said in exercising First
Amendment rights. Like Nineteen Eighty-Four’s
Winston Smith, CADA wants Lorie Smith to not only
accept government approved speech but also to
endorse it.
In the First Amendment context, a plaintiff may
bring a facial challenge “whereby a law may be
18

It states:
It is a discriminatory practice and unlawful for a person,
. . . directly or indirectly, to [communicate] that an
individual’s patronage or presence at a place of public
accommodation
is
unwelcome,
objectionable,
unacceptable, or undesirable because of disability, race,
creed, color, sex, sexual orientation, gender identity,
gender expression, marital status, national origin, or
ancestry.

Colo. Rev. Stat. § 24-34-601(2)(a).

99
invalidated as overbroad if a substantial number of
its applications are unconstitutional, judged in
relation to the statute’s plainly legitimate sweep.”
United States v. Stevens, 559 U.S. 460, 473 (2010); see
also Virginia v. Hicks, 539 U.S. 113, 119–20 (2003)
(holding that a “law’s application to protected speech
[must] be ‘substantial,’ not only in an absolute sense,
but also relative to the scope of the law’s plainly
legitimate applications . . . before applying the ‘strong
medicine’ of overbreadth invalidation” (quoting
Broadrick v. Oklahoma, 413 U.S. 601, 613 (1973)). In
Stevens, the Supreme Court held as constitutionally
overbroad an animal cruelty ban that applied to any
depiction in which “a living animal is intentionally
maimed, mutilated, tortured, wounded, or killed.” Id.
at 474 (quoting the statute at issue). The Court
picked through each of these words, one by one,
determining whether any of these words made the
statute’s reach too broad. The words “wounded” and
“killed” encompassed too much legal, protected
conduct. Id. at 475–76. Even the statute’s inclusion
of the additional element of “accompanying acts of
cruelty” did not work to contain the too-broad
meaning of “wounded” and “killed.” Id. at 474.
Nor may a statute be so impermissibly vague as
to deprive a potential lawbreaker of due process. As
the Supreme Court has explained:
Vague laws offend several important
values. First, because we assume that
man is free to steer between lawful and
unlawful conduct, we insist that laws
give the person of ordinary intelligence a
reasonable opportunity to know what is
prohibited, so that he may act

100
accordingly. Vague laws may trap the
innocent by not providing fair warning.
Second, if arbitrary and discriminatory
enforcement is to be prevented, laws
must provide explicit standards for those
who apply them. A vague law
impermissibly delegates basic policy
matters to policemen, judges, and juries
for resolution on an ad hoc and
subjective basis, with the attendant
dangers of arbitrary and discriminatory
application. Third, but related, where a
vague statute abuts upon sensitive areas
of basic First Amendment freedoms, it
operates to inhibit the exercise of those
freedoms.
Uncertain
meanings
inevitably lead citizen[s] to steer far
wider of the unlawful zone than if the
boundaries of the forbidden areas were
clearly marked.
Grayned v. City of Rockford, 408 U.S. 104, 108–09
(1972) (internal quotation marks omitted; alterations
incorporated); see also U.S. Jaycees, 468 U.S. at 629
(“The void-for-vagueness doctrine reflects the
principle that a statute which either forbids or
requires the doing of an act in terms so vague that
persons of common intelligence must necessarily
guess at its meaning and differ as to its application,
violates the first essential of due process of law.”)
(internal quotation marks omitted; alterations
incorporated).
The void-for-vagueness doctrine also prevents
arbitrary enforcement by government officials and

101
properly maintains separation of powers. See
Sessions v. Dimaya, 138 S. Ct. 1204, 1225 (2018)
(Gorsuch, J., concurring) (“Vague laws invite
arbitrary power”); id. at 1205 (“Nor is the worry only
that vague laws risk allowing judges to assume
legislative power. Vague laws also threaten to
transfer legislative power to police and prosecutors,
leaving to them the job of shaping a vague statute’s
contours through their enforcement decisions.”). And
when a law abridges First Amendment civil rights, it
must be subjected to an especially “stringent
vagueness test.” Vill. of Hoffman Ests. v. Flipside,
Hoffman Ests., Inc., 455 U.S. 489, 499 (1982).
CADA’s “do-not-offend provision” is both
overbroad and vague. Begin with the provision’s
overbreadth. Analyzing any of the operative words—
“unwelcome,
objectionable,
unacceptable,
or
undesirable”—is instructive. Take, for instance,
“unwelcome.” Merriam-Webster defines unwelcome
as “not wanted.” It surely implies a subjective element
on behalf of the person who feels unwelcome. For
example, an atheist who walked into a hardware store
owned by a Christian might feel unwelcome if he saw
a sign inside that said, “We honor God and His
commandments here.” This sign says nothing about
the atheist’s protected class status, and it certainly
does not directly “indicate” that he is unwelcome. And
the store’s purveyors might not have hung the sign
with that intent whatsoever—but the statute includes
indirect as well as direct speech or conduct. This
otherwise completely innocent and lawful sign—
indeed, a sign protected by the First Amendment—
would fall within the provision’s purview.

102
Or suppose a restaurant owner hung a
Confederate flag outside his establishment. Given its
controversial status, such a symbol might make
potential patrons feel unwelcome in that restaurant,
or perhaps make them feel as though the owner finds
their business undesirable. But government
regulation of displaying a flag as part of expressive or
symbolic speech is surely subject to strict scrutiny
under the First Amendment. See Spence v. State of
Washington, 418 U.S. 405, 415 (1974) (holding the
display of an United States flag upside down and with
a peace sign taped on it was protected expression);
Texas v. Johnson, 491 U.S. 397, 406 (1989)
(concluding that a man’s “burning of the [United
States] flag was conduct ‘sufficiently imbued with
elements of communication’ to implicate the First
Amendment” (quoting Spence, 418 U.S. at 409)).
Or take “objectionable.” Perhaps a Muslim shop
owner hangs a sign that reads, “There is no God but
Allah and Muhammad is His Prophet.” A Christian
who walked into the store may feel that the
shopkeeper objects to his beliefs about Jesus Christ as
his savior—which would make the sign an indirect
statement that the Christian’s views about Jesus
Christ (or about Muhammad, for that matter) are
objectionable. But the sign is, of course, protected
speech. It takes little imagination to multiply these
examples by dozens. The provision unyieldingly
sweeps in substantial swaths of protected conduct
and speech.
The majority’s position that the Unwelcome
Provision cannot be overbroad because it is couched
within the Communication Clause’s “primar[y] focus[]
on access to goods and services,” Maj. Op. at 48, is

103
unpersuasive. For one, all of the examples above
relate to access to goods and services within places of
public accommodation and would be covered by both
the Communication Clause and the Unwelcome
Provision—yet the speech in each example is
undoubtedly protected. For another, the Unwelcome
Provision does not solely target access to goods and
services: indeed, communication that an individual’s
mere presence at a place of public accommodation is
unwelcome is swept into the law as well. Colo. Rev.
Stat. § 24-34-601(2)(a) (prohibiting communication
“that an individual’s patronage or presence at a place
of public accommodation is unwelcome, objectionable,
unacceptable, or undesirable” because of a protected
class status (emphasis added)). Moreover, by its own
terms, the Unwelcome Provision applies not only to
direct but indirect communication. The majority fails
to explain how its market-access theory will
permissibly apply to indirect communication—
communication that, in other words, may not even be
aimed at an individual’s access to a product or place
of public accommodation. Is the monopolist-of-one
artist required to silence herself?
As for vagueness, the examples discussed above
make clear that the terms “unwelcome, objectionable,
unacceptable, [and] undesirable” are too flexible in
meaning to give proper notice to any reasonable
person as to the provision’s reach. Indeed, given the
terms’ subjective valence, their definitions could be
nearly limitless. The Unwelcome Provision abuts
directly against “sensitive areas of basic First
Amendment freedoms,” thus “operat[ing] to inhibit
the exercise of those freedoms.” Grayned, 408 U.S. at
109. In verging on, or even overlapping with,

104
protected speech, the provision has confusing and
uncertain meanings that “inevitably lead citizen[s] to
steer far wider of the unlawful zone than if the
boundaries of the forbidden areas were clearly
marked.” Id. And given this wide latitude, Colorado
state officials and courts can arbitrarily interpret the
provision, parceling out punishment and mercy at
whim.
Colorado says no harm, no foul. But its own
statements in this litigation belie Colorado’s
willingness to distribute punishment inequitably.
Colorado explained at oral argument that
interpreting the provision would require case-by-case
analysis—and that outcomes would “depend on the
context.” Oral Arg. at 31:50. Hanging a Confederate
flag, for example, might be acceptable in “some
circumstances” and not in others. Id. at 32:10. But
Colorado offers no cognizable standard by which
business owners, the Commission, or judges can
determine which are which. And the provision itself
does not give any clues for interpretation. Rather, the
Unwelcome Provision
leaves the people to guess about what
the law demands—and leaves judges to
make it up. You cannot discern answers
to any of the questions this law begets by
resorting to the traditional canons of
statutory interpretation. No amount of
staring at the statute’s text, structure, or
history will yield a clue. Nor does the
statute call for the application of some
preexisting body of law familiar to the
judicial power.

105
Sessions v. Dimaya, 138 S. Ct. at 1225 (Gorsuch, J.,
concurring). Without hints about how to apply these
traditional methods of interpretation, the provision
invites exactly the type of capricious enforcement
prohibited by due process.
Because it cannot give proper and clear notice of
what is lawful and what is not, this provision of CADA
is unconstitutionally vague and overbroad.

IV.

Conclusion

Lest it go unsaid in this case: We must presume
Ms. Smith wants to live and speak by her faith, not
discriminate against any particular group or person.
We must presume she has reached her beliefs “based
on decent and honorable religious or philosophical
premises.” Obergefell, 576 U.S. at 672. And we must
presume that her beliefs are anything but trivial. So
it is in protecting the right to hold these beliefs that
we understand the true resilience of the First
Amendment. The “freedom to differ is not limited to
things that do not matter much. That would be a mere
shadow of freedom. The test of its substance is the
right to differ as to things that touch the heart of the
existing order.” Barnette, 319 U.S. at 642.
For these reasons, I dissent.

